<html>
<title> - A NEW STRATEGY FOR AFGHANISTAN AND PAKISTAN</title>
<body><pre>[Senate Hearing 111-307]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-307

              A NEW STRATEGY FOR AFGHANISTAN AND PAKISTAN

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html




                  U.S. GOVERNMENT PRINTING OFFICE
55-426 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        




                            C O N T E N T S

                              ----------                              
                                                                   Page

Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4
Mullen, ADM Michael G., USN, Chairman, Joint Chiefs of Staff, 
  Washington, DC.................................................     5
    Prepared statement...........................................     8
    Responses to questions submitted by:
        Senator John F. Kerry....................................    33
        Senator Robert P. Casey, Jr..............................    36
        Senator Kirsten Gillibrand...............................    37

                                 (iii)

  

 
              A NEW STRATEGY FOR AFGHANISTAN AND PAKISTAN

                              ----------                              


                         THURSDAY, MAY 21, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:20 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Feingold, Menendez, Cardin, Casey, 
Webb, Kaufman, Lugar, Corker, Isakson, and Wicker.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come order. Thank you all 
for bearing with us for a few moments.
    Admiral, thank you for your patience. I know you have a 
busy schedule, and I apologize, but we had one of our many, 
many, many cloture votes in order to proceed forward. And this 
is on the supplemental. So, I know it's a matter of urgent 
importance to you and the troops, and we're glad that we were 
able to get that vote under our belt.
    We're delighted to have you come here today. We value your 
insights enormously. And let me say how grateful we are for 
your service, personally. I know how many trips you've been 
making to a number of different regions, and how diligently 
you've been pursuing the important issues that we face.
    And on behalf of all of us, and I know you do this anyway, 
but please convey to the troops in every theater our deepest 
respect and admiration for what they are doing. Everywhere we 
go--and we're privileged to go to many of these sites--we see 
them working on the front lines under extraordinary 
circumstances, and I have never failed to be impressed by the 
quality of the service. I think I told you, when we were at 
breakfast recently, about a Navy commander running the PRT in 
Konar province in Afghanistan, and doing an amazing job, as 
impressive a briefing as I've received anywhere. So, we really 
just want to express our gratitude. Thank you.
    It's been 2 months now since President Obama announced the 
new strategy for Afghanistan and Pakistan. The situation in 
both countries obviously remains challenging. In Afghanistan, 
the trend lines over the past 2 years have been disturbing to 
every single
one of us. There's no debate about their direction. Casualty 
rates have risen for American troops, for our coalition 
partners, for Afghan security forces, and especially for Afghan 
civilians. Security throughout most of the country is as bad as 
it's been at any time since the ouster of the Taliban. The 
Afghan people have little affection for the Taliban; that is 
very, very clear. And yet, support has been rapidly falling for 
America and for the international community and for the Kabul 
government.
    Regardless of the result, August's Afghan elections are 
going to be a milestone for the country. If the elections are 
successful, they can offer a much-needed break with recent 
disappointments. But, if the polling is marred by intimidation, 
fraud, other forms of abuse, it could push Afghanistan back 
toward the succession of failed, illegitimate governments of 
the past. The reality is, with this new strategy, we know, from 
our commanders on the ground that things may get worse before 
they get better. Deploying an additional 17,700 troops to 
Afghanistan is necessary to reverse the tide and prevent the 
Taliban insurgency from gaining unstoppable momentum.
    When I visited our troops in Kandahar and Qalat this 
winter, I heard, repeatedly, that our soldiers fully understand 
the tough road ahead. The American people need to understand it 
as much as they do.
    The Obama administration recognizes the challenge, which is 
why it has set forth a clear and limited goal of not allowing 
Afghanistan to again become a safe haven for al-Qaeda and other 
terrorist groups that seek to attack us. Every time one goes 
through the options--and there are not many, and they're not 
great--but, every time you look at the options and consider the 
possibilities of either not being there or withdrawing to a 
level that diminishes our ability to do the mission, the 
dangers of that option leap out at you, loudly and clearly. To 
leave Afghanistan to the capacity of al-Qaeda to simply return, 
and of extremist religious fanaticism, globally, to somehow 
view it as a free license, green light, to engage in the 
activities they've been engaging, would be far, far more 
dangerous for the world.
    Under the leadership of General Petraeus, we are 
implementing a classic counterinsurgency strategy that will 
focus on protecting the civilian population rather than 
focusing on the enemies' body count: treating the populace, 
rather than geography, as the terrain to be won over; training 
Afghan security forces, understanding the local culture and 
tradition so that we can forge genuine partnerships; empowering 
the populace itself and local leaders to make this struggle 
their own. And I'm confident that the administration and the 
military understand that, if we are ultimately to win over the 
Afghan people, we must redouble our efforts to reduce civilian 
casualties.
    We must also devise a more sophisticated counternarcotics 
strategy. Unless we provide alternative livelihoods to farmers 
while cracking down on drug kingpins and processing labs, we're 
unlikely to break the stranglehold of corrupt government 
officials and narcotraffickers.
    In Pakistan, the challenges are, in many ways, greater, and 
certainly our ability to confront them is, at the same time, 
far more limited. But, make no mistake, Pakistan is an 
absolutely vital and compelling national security concern for 
the United States. I don't need to tell anyone, but we ought to 
underscore it at every occasion, that if a nuclear-armed nation 
of 170 million people were to become a failed state, it would 
pose an unimaginable peril to itself, its neighbors, and the 
world.
    At our hearing with Ambassador Holbrooke last week, we 
discussed Pakistan in depth. But, I'd just emphasize, quickly, 
a few points.
    First, to fix a Pakistan policy that has largely failed to 
the degree there's been a Pakistan policy--we need to create a 
new strategy. Senator Lugar and I have introduced legislation 
which we believe helps to do just that. By tripling nonmilitary 
aid, authorizing it for 5 to 10 years, and delinking this aid 
from our security assistance, we believe we can put our 
relationship with Pakistan on an entirely new foundation. We 
can ground our ties on the bedrock of the Pakistani people 
themselves. That's why President Obama explicitly called on 
Congress to pass the Kerry-Lugar bill as part of his overall 
strategy.
    Second, I was struck, during my recent visit to the 
Frontier Corps headquarters in Peshawar, to hear that after the 
corps had fought so hard to clear the Taliban out of Bajaur and 
the Federally Administered Tribal Areas, they had no capacity 
to bring in the type of development assistance necessary to 
consolidate their military gains. The bill that Senator Lugar 
and I propose will help provide the ``hold'' and ``build'' 
parts of Pakistan's counterinsurgency strategy.
    It was striking to me to hear a competent general, Gen. 
Tariq Khan, sit there and explain how well they had done, and 
then, in exasperation, talk about how, for 7 or 8 weeks 
afterward, not a thing happened to change the lives of the 
people who had been dislocated or impacted by the military 
operation. That is an invitation to those folks giving up on 
the notion that it makes a difference. And clearly, in the long 
run, we're not going to be successful if that's what happens.
    If we can employ this new counterinsurgency strategy that 
is more people-focused than troop-focused, not only in the 
tribal areas, but throughout the country, before settled areas 
like the Punjab and Sindh are destabilized, then I believe we 
may be able to address the emerging crisis before it fully 
matures.
    Third, the current humanitarian crisis in Swat Valley is a 
pressing, immediate need. It is an opportunity, frankly, and I 
welcome the administration's decision to follow up on what came 
out of our hearing with Ambassador Holbrooke, and to send $110 
million in humanitarian aid.
    As I noted at last week's hearing, we have a chance here to 
demonstrate America's friendship and concern for the people in 
the communities of Pakistan. After the Kashmir earthquake, the 
sight of American service men and women saving the lives of 
Pakistanis was incontrovertible proof of our good intentions, 
and, for a time--for a time--Pakistani's trusted Americans more 
than their own government or religious radicals. The problem 
is, we failed to follow up on that effort with a broader 
strategy, countrywide. But, I believe the bill proposed by 
Senator Lugar and myself aims to correct that failure.
    Finally, we need to be clear about what is possible. 
Ultimately, we can influence events in Pakistan, but we cannot 
decide them. We can strengthen the hand of the moderate 
majority, but the choices need to be made by that majority and 
by the Pakistanis themselves.
    Chairman Mullen, I look forward to your military assessment 
of this new plan. I know how much time you have spent building 
personal relationships with the leaders--their military 
leaders, their intelligence leaders, as well as the civilian 
leadership. You are trusted over there, and you're trusted up 
here, and we welcome your testimony today.
    Thank you.
    Senator Lugar.

              STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
join you in welcoming Admiral Mullen.
    We very much appreciate your willingness to engage our 
committee today on Afghanistan and Pakistan. You know of my 
personal enthusiasm for your leadership as CNO and in this new 
capacity. We are very excited and enthused about all that you 
are doing and the vigor with which you have done it.
    Let me say that this hearing gives members an opportunity 
to review the situation in the region, from a military 
perspective, and to more fully comprehend the scope of the 
integrated U.S. effort to combat extremism.
    Yesterday's JCS briefing for members provided a chance to 
discuss some critical matters in a classified setting, 
including reports that Pakistan has continued to prioritize 
nuclear weapons production despite other budgetary challenges. 
We're also grateful that Admiral Mullen will discuss the Kerry-
Lugar Pakistan legislation, S. 962, and how we might improve 
United States policy toward that country. He has been in the 
region frequently during his time as Chairman of the JCS. His 
perspectives are extremely valuable to our understanding of 
what is occurring there.
    Chairman Kerry and I have listened carefully to those 
conducting a strategic review of United States policy in South 
Asia. We've tried to ensure consistency between our bill and 
the President's goals. The Enhanced Partnership with Pakistan 
Act of 2009 sustains the objectives outlined by the 
administration and provides tools to help implement them, 
including additional resources for oversight and 
accountability. Our legislation is intended to take advantage 
of the opportunity for revitalizing our relationship with 
Pakistan through greater diplomatic engagement, as well as a 
commitment to economic and political development.
    The President and his senior leadership have voiced support 
for this legislation. At last week's hearing, Ambassador 
Holbrooke asserted that the assistance envisioned in the bill 
is seen in the region as a central element of enhancing our 
long-term relationship. The President has stated clearly that 
diplomatic, military, and development efforts related to 
Afghanistan and Pakistan are among our highest national 
security priorities.
    The administration has backed this up with a request for 
billions of dollars of assistance to these countries. And with 
Admiral Mullen's announcement, the administration has 
designated Afghanistan as the ``main effort'' of our strategic 
military focus. Such strategic emphasis and the resources 
allocated to these purposes require considerable planning by 
the administration to ensure a favorable outcome.
    Thus far, the administration has provided overarching 
guidance for policy toward the region and plans for Afghanistan 
that are somewhat more detailed, but it has yet to produce a 
comprehensive strategic blueprint of how our assistance will be 
utilized to achieve specific goals in these countries. Also 
lacking is a clear representation of the commitments that the 
Governments of Afghanistan and Pakistan will undertake, as well 
as the contributions of other donor countries.
    I've been encouraged by Admiral Mullen's support for 
appropriate foreign assistance increases in the region. He has 
long recognized the importance of an integrated civil/military 
approach to many challenges, a view that has been reinforced by 
the President's strategic review. Our committee is committed to 
strengthening the civilian capacity of the State Department, 
USAID, and other agencies in this strategic region, and we 
welcome the Admiral's views on that process. We're interested 
in how the Department of Defense has engaged with the White 
House and other agencies in providing assistance in the region. 
The dynamic and dangerous environment in Pakistan will require 
a clear understanding of the responsibilities of our varied 
government agencies as they engage with the host governments. 
Are agencies adequately coordinating? And if not, how can we 
improve the situation? Has the Defense Department assumed 
roles, out of necessity, that are better performed by civilian 
agencies?
    The committee is also interested in Admiral Mullen's 
perspective on the tools necessary to fulfill the 
administration's regional policy expectations. After years of 
United States support for the Pakistani military, it's 
extremely important for Members of Congress to understand how 
the United States will maintain effective oversight of funds to 
prevent misappropriation or diversion.
    The committee is especially grateful for your insights, 
Admiral Mullen, on the proposed legislation on interagency 
coordination and cooperation, and obviously on your recent 
visits to the region.
    Thank you so much for coming.
    And thank you, Mr. Chairman, for calling the hearing.
    The Chairman. Thank you, Senator Lugar.
    Admiral, we welcome your testimony. Thank you for being 
here with us.

STATEMENT OF ADM MICHAEL MULLEN, USN, CHAIRMAN, JOINT CHIEFS OF 
                     STAFF, WASHINGTON, DC

    Admiral Mullen. Thank you, Chairman, Senator Lugar, 
distinguished members of the committee. I'm grateful for the 
opportunity to appear before you to discuss our strategy for 
the way ahead in Afghanistan and Pakistan, as well as the 
merits of this committee's efforts to help us resource that 
strategy.
    As you know, Afghanistan and Pakistan are two very 
different countries, very much linked, not only to each other, 
but inextricably to the national security of the United States. 
Indeed, our national interests are tied to that region perhaps 
more than to any other right now, and there's no corner of the 
world, none, that concerns me more.
    I've spent much of my time since assuming this office 
intently focused on the challenges in this region and on 
developing personal and professional relationships with leaders 
there whose decisions are now, and will remain, indispensable 
to our common desire for security and stability. We simply must 
try harder to see their problems through their eyes. If I've 
learned nothing else, it is that nothing we do here in 
Washington will matter much in the end if it doesn't reflect 
our earnest desire to reestablish lost trust and regain lost 
opportunities to prevent either nation from being crushed in 
the grip of extremism.
    You don't need to look very hard at the headlines to see 
that we are not making enough headway in that regard. That's 
why one of the things I like most about the proposed 
legislation I see being considered here is the long-term 
commitment it represents specifically to the people of 
Pakistan, but also, quite frankly, to those in Afghanistan, as 
well. It is not just the money, it's the 5 years of steady 
friendship and partnership it will demand of us. It's the 
promise that we will stay and we will help and we will stand 
shoulder to shoulder with them in ways we've not always done.
    That's why I'm also so committed to our new strategy for 
the reason, a strategy that, likewise, demands commitment from 
us and holds us accountable to achievable goals to deter, 
dismantle, and defeat al-Qaeda through whole-of-government 
resources and critical enablers.
    Let me speak first to Afghanistan. We are, from a military 
perspective, shifting the main effort there as we drawdown 
responsibly in Iraq. There's no question in my mind that this 
is appropriate, given both the Taliban's dangerous ambitions 
and their steady progress. But, it is also a testament to the 
hard work and sacrifice of our men and women in Iraq over the 
last 6 years. Were it not for their efforts, for the relative 
success we've achieved there, we would, I fear, be unable to 
devote this level of attention to Afghanistan. And I am 
reminded that we still have more than 135,000 troops in Iraq, 
doing critical and dangerous work, that nearly 4,300 have lost 
their lives in that pursuit, and that, as we shift the weight 
of our footprint further east, we must capture their lessons 
learned, their combat experience, and tap into their wisdom.
    The war in Iraq has taught us things about 
counterinsurgency warfare we might never have discovered 
otherwise. We will be smarter now in Afghanistan, and more 
successful, in my view, not in spite of Iraq, but because of 
it.
    To that end, I see four distinct pillars for that success:
    First, developing better security and better protection for 
the Afghan people, who are the real center of gravity, by 
continuing to train and build the Afghan National Security 
Force.
    Second, setting the conditions for good governance, not 
just from Kabul, but at the local, district, and provincial 
levels.
    Third, devising a sustainable path for Afghan-led 
development and opportunity, not propped up by poppy, but 
rooted in legitimate economic ways and means.
    And finally, delivering and developing our own, and their, 
civilian capacity to overcome the obstacles to sound civil 
institutions, quality education, and the rule of law.
    The Taliban may not be some monolithic or homogeneous body 
in makeup or ideology, but they do have governing ambitions. 
It's not just about instilling fear or spreading violence; they 
want Afghanistan back. We can't let them or their al-Qaeda 
cohorts have it. We can't permit the return of the very same 
safe haven from which the attacks on 9/11 were planned and 
resourced. And yet, we can't deny that our success in that 
regard may only push them deeper into Pakistan, which is the 
main topic of today's hearing.
    As you know, Mr. Chairman, Pakistan faces many complex 
challenges: Perceived threats from the north and east, the very 
real threat of insurgency from within, and the growing risks of 
poverty and illiteracy unchecked. Yet, our ongoing engagement 
with Pakistan is yielding, and will continue to yield; promise. 
We still recover from almost 12 years of silence during which 
the Pressler amendment was enforced. Our military 
relationships, which often have been national relationships, 
have, in many ways, started anew. I value the relationship 
General Kiyani and I have cultivated over the past year and a 
half, and, more importantly, that kind of a relationship is 
slowly being replicated down our respective military chains and 
in our war colleges. In all this, there is opportunity now for 
both sides.
    The ancient marshal history that is Pakistan's is a proud 
one, indeed, going back to the days of Alexander the Great. And 
Pakistanis are just as proud today. We focus a lot of our 
attention on their conventional and even nuclear capabilities, 
but they are working to expand their counterinsurgency 
capability, as well. Just a few weeks ago, General Kiyani took 
me into the field to visit two division-based counterinsurgency 
exercises for two of their battalions. It was impressive, both 
in scope and complexity, but clearly they have more work to do. 
As we have seen in their recent operations in Buner and Swat, 
and again, as we have learned, ourselves, effective 
counterinsurgency warfare must be permanent enough to displace 
the enemy, and nimble enough not to displace the people.
    We are happy to help contribute to relief efforts in those 
areas, but we look forward to the day, as they do, when they 
can return home to more prosperous and stable lives. Here, they 
need our help as much as we need their results. And with this 
committee's help, we can provide the right resources at the 
right time, creating needed flexibility with the Pakistan 
Counterinsurgency Capabilities Fund, for which I ask your 
continued and expeditious support. Yet, military support alone 
will not be sufficient. It will also require complementary 
assistance to the civilian elements in Pakistani society so 
that they continue to support the civilian government and its 
move against the militant threat. Most of all, we must actively 
demonstrate patience in these relationships, on both sides of 
the table. We must expect that lasting results will take time, 
and be clear and candid with each other about how these results 
are being realized.
    Finally, in addressing these issues, we must always view 
the second and third order effects from every perspective, for 
each one is critical. We must remain cognizant of key regional 
linkages, such as India and China, as well as Russia, NATO, 
Iran, and the rest of the Middle East.
    More than all this, we must continue to listen and learn 
directly from the people in Afghanistan and Pakistan 
themselves, to see things through their eyes. Their trust in us 
is the key to their success. And no tactical victory is worth 
the strategic failure of that trust.
    Ours is a common enemy. We face a common task. This is the 
struggle of our age.
    I thank you, sir, this committee, and the rest of Congress, 
for your assistance and counsel on these most pressing issues, 
and I thank you for your commitment to our military and our 
families, as well as our many civilian expeditionary and 
Foreign Service officers and their families.
    Thank you, Mr. Chairman.
    [The prepared statement of Admiral Mullen follows:]

Prepared Statement of ADM Michael G. Mullen, USN, Chairman of the Joint 
                    Chiefs of Staff, Washington, DC

    Chairman Kerry, Senator Lugar, distinguished members of the 
committee, it is my privilege to testify on our strategic partnerships 
with Pakistan and Afghanistan.
    I set three priorities for the U.S. military upon becoming Chairman 
that continue to guide our efforts. First, we must continue to improve 
stability and defend our vital national interests in the broader Middle 
East and South Central Asia. Second, we must continue efforts to reset, 
reconstitute, and revitalize our Armed Forces. Third, we must continue 
to balance global strategic risks in a manner that enables us to deter 
conflict and be prepared for future conflicts. The three strategic 
priorities are underpinned by the concept of persistent engagement, 
which supports allies and partners through programs abroad and at home 
and which must be led by and conducted hand in hand with our 
interagency partners to achieve sustainable results. These three 
priorities all contribute to our Nation's ability to build and sustain 
enduring relationships with our Pakistani and Afghan partners.
                          regional adjustments
    In Afghanistan and Pakistan we are providing additional resources 
to address the increase in violence we have seen over the past year. 
The strategic goal as outlined by the President on March 27, 2009, is 
to disrupt, dismantle, and defeat al-Qaeda and its extremist allies in 
Pakistan and Afghanistan and to prevent their return to either country. 
As that strategy was being developed in consultation with our NATO 
allies and other partners, we began responding to conditions on the 
ground by reinforcing the International Security and Assistance Force 
with some 17,700 troops, the majority of which will arrive by this 
summer. Our aim in Afghanistan is to check the momentum of the 
insurgency, train additional forces, and ensure security for the Afghan 
national elections in August while in Pakistan we will work with the 
Pakistani military to further develop their counterinsurgency skills 
and build stronger relationships with Pakistani leaders at all levels.
    The main effort is Afghanistan, though our residual footprint in 
Iraq will remain larger than in Afghanistan until well into 2010. The 
strategic environment we face beyond these ongoing conflicts is 
uncertain and complex, particularly in South Central Asia. In the near 
term, we will maintain focus on threats to our vital national interests 
and our forces directly in harm's way. Increasingly, the greatest mid-
term military threats will come from transnational concerns--the 
proliferation of nuclear weapons and missile technology, transnational 
terrorism, competition over energy, water, and other vital resources, 
natural disasters and pandemics, climate change, and space 
vulnerabilities.
    The global economic crisis has obviously affected South Central 
Asia, which, on top of existing conditions, increases the likelihood 
that internal strife, virulent nationalism, manufactured crises, or 
state conflict may generate additional crises. Economic concerns will 
increasingly be the lens through which we--and our partners and 
competitors--filter security considerations. Many nations may decrease 
expenditures on defense and foreign assistance, thus making the pool of 
collective resources we have to address challenges smaller. We will 
work through our military-to-military contacts to address this tendency 
directly and help to coordinate priorities, emphasizing that we are all 
bound together in this global economy.
                           south central asia
    Given its strategic importance and our vital national interests, 
the United States will continue to engage in South Central Asia--as a 
commitment to friends and allies, as a catalyst for cooperative action 
against violent extremism, as a deterrent against state aggression, as 
an honest broker in conflict resolution, and as a guarantor of access 
to natural resources.
    Attaining our goals in this critical region requires time, 
resources, patience, and endurance. Most of the challenges in the 
region are not military in nature and can only be met successfully 
through development and political leadership from within. Our role 
remains one essentially of consistent, transparent partnership-
building. These actions send an unmistakable message to all that the 
United States remains committed to the common good, while steadily 
expanding the sets of partnerships available to address future 
challenges.
    Central to our efforts in South Central Asia is the relentless 
pressure we will maintain on al-Qaeda and its senior leadership. Al-
Qaeda's narrative will increasingly be exposed as corrupt and self-
limiting. Though too many disaffected young men still fall prey to al-
Qaeda's exploitation, I believe the populations in the region will 
ultimately reject what al-Qaeda offers. The U.S. military's task is to 
partner with affected nations to combat terrorism, counter violent 
extremism, and build their capacity to shoulder this same burden.
    Afghanistan and Pakistan are key partners in the fight against al-
Qaeda and militant global extremism and must be understood in relation 
to each other. Afghanistan requires additional resources to counter a 
growing insurgency partially fed by safe havens and support networks 
located within Pakistan. Additional United States troops will conduct 
counterinsurgency operations to enhance population security against the 
Taliban in south/southwest Afghanistan and to accelerate and improve 
training and mentoring of Afghan security forces. As in Iraq, our 
troops will live among the population. We must make every effort to 
eliminate civilian casualties, not only because this is the right thing 
to do but also because it deprives the Taliban of a propaganda tool 
that exploits Afghan casualties and calls into question United States/
NATO endurance and effectiveness in providing security. Although we 
must expect higher alliance casualties as we go after the insurgents, 
their sanctuaries, and their sources of support, our extended security 
presence must--and will--ultimately protect the Afghan people and limit 
both civilian and military casualties. Our troops will integrate 
closely with Afghan forces, with the objective of building Afghan 
security forces that are capable of assuming responsibility for their 
country's security.
    We expect the reinforcements to have the most pronounced effect 
over the next 12-24 months. Security gains can only be assured when 
complemented by development and governance programs designed to build 
greater self-sufficiency over time. Our commanders in the field can lay 
some of this groundwork through the proven Commanders Emergency 
Response Program to start smaller projects quickly, but these projects 
can not compensate for the larger, enduring programs required. A 
temporary boost in security that is not matched with commensurate 
political and economic development will not only fail to generate faith 
in the Afghan Government and fail to convince Afghans of our 
commitment, but also fail to accomplish our objectives. Over time, 
these objectives will be met more through civilian agencies and 
nongovernmental organizations, with a lighter military presence. 
Getting to that point, however, requires that military forces generate 
the security required for political and economic initiatives to take 
root.
    Pakistan is crucial to our success in Afghanistan. In my nine trips 
to Pakistan, I've developed a deeper understanding of how important it 
is that we, as a nation, make and demonstrate a long-term commitment to 
sustaining this partnership. In my military judgment, the programs 
outlined in the Enhanced Partnership with Pakistan Act of 2009 can 
serve as an important demonstration of our Nation's enduring commitment 
to the government and people of Pakistan. The bill's long-term 
approach, extending over the next 5 years, can help to allay the fear 
of abandonment that I have encountered during my interactions with 
Pakistani leaders. These programs, focused on civilian projects, will 
be essential complements to the programs we have underway with our 
military counterparts. It is essential that we have an expansive 
program of civilian assistance alongside our military assistance to the 
Government of Pakistan. We look forward to working with the committee 
to ensure that this proposed legislation best positions us to achieve 
our strategic goals. In my military judgment, I also believe the 
Reconstruction and Opportunity Zone legislation the President has asked 
Congress to pass is an accompanying program which can stimulate badly 
needed jobs in Pakistan's troubled border region as well as in 
Afghanistan. These jobs would encourage legitimate livelihood 
alternatives for economically vulnerable young men and help counter the 
illicit and destabilizing income options that are now prevalent.
    We are taking multiple approaches to rebuild and strengthen 
relationships and address threats common to both of our nations. One 
key approach in the near term is to help Pakistan's military to improve 
its overall--and specifically its counterinsurgency--capabilities. 
Beyond the trainers we will continue to provide the Pakistani 
Counterinsurgency Capability Fund, Foreign Military Financing and 
Coalition Support Funds the means to address this issue directly, and I 
ask the Congress to support these initiatives and provide the 
flexibility to accelerate their implementation. We will ensure that 
greater accountability measures are in place so that these funds go 
where they are intended to go. These programs will help the Pakistanis 
take continued action to combat extremist threats in western Pakistani 
territories which will complement the reinforcement of troops and 
special operations efforts in Afghanistan to maintain pressure on al-
Qaeda and Taliban leadership. We will also be well served by a 
substantially larger International Military Education and Training 
program with Pakistan, to help enhance and forge lasting mil-to-mil 
relationships. I endorse a similar approach for and with our 
interagency partners, and I fully support the building of the Civilian 
Response Corps, which could be of considerable use to our diplomats in 
South Central Asia. Achieving the objectives of any campaign requires 
increased emphasis not only on fully developing and resourcing the 
capacity of other U.S. agencies (State, USAID, Agriculture, Treasury, 
and Commerce, and so forth), but also on increasing our Nation's 
ability to build similar interagency capacities with foreign partners.
    Al-Qaeda has expressed the desire for WMD and their intent to 
strike our homeland is undisputed. Consequently, the nexus between 
violent extremism and the proliferation of WMD, most dangerously in 
South Central Asia, remains a grave threat to the United States and our 
vital national interests. The defeat of al-Qaeda would significantly 
diminish the threat from this nexus, but does not fully remove it given 
the conceptual blueprint already established for other extremists. We 
will continue to support national efforts to counter, limit, and 
contain WMD and missile proliferation from both hostile state and 
nonstate actors. We will also team with partners inside and outside the 
region to reduce vulnerabilities and strengthen regional governments' 
confidence that we can address the WMD threat. To this end, I remain 
satisfied that Pakistan's nuclear weapons are secure and that 
Pakistan's leadership and military are intensely focused on this issue. 
We have worked together closely and share the same strategic concerns, 
namely that this threat requires vigilance for the duration, given the 
magnitude of damage that could be wrought by even a single incident. We 
both recognize that we can never take the duty to safeguard nuclear 
weapons and material for granted.
    In all, we must recognize the limits of what can be accomplished at 
what price and at what pace in both Pakistan and Afghanistan. This will 
be a long campaign. In keeping with the President's pledge to hold 
ourselves accountable, the interagency is working to develop measures 
of effectiveness to help us measure progress in both countries. We do 
understand the sensitivity to these measures our partners have, but our 
Nation's efforts also make it clear to them that we are committed to 
providing sustained, substantial commitment. Progress in Afghanistan 
and Pakistan will be halting and gradual, but we can steadily reduce 
the threats to our Nation that emanate from conditions in those 
countries. We are taking steps now to move additional troops into 
place, to refine the command structure, and to benefit from the 
pertinent counterinsurgency lessons we have learned thus far as we move 
forward with our Afghan, Pakistani, interagency, and international 
partners in accomplishing the strategic goal directed by the President.
    Of particular importance in accomplishing this goal is India, which 
has emerged as an increasingly important strategic partner of the 
United States. The historic regional security dynamics between Pakistan 
and India complicate an already complex situation. We have seen some 
progress in transparency and timeliness of communications between the 
two nations, particularly in the aftermath of the attacks in Mumbai 
last November. To the extent that we can continue to assist our two 
partners in resolving points of potential conflict and cooperating to 
address extremist threats to both nations, the better will be the 
effects of our actions already underway in South Central Asia.
                               conclusion
    In providing my best military advice over the past 18 months, one 
important point I have made, consonant with Secretary Gates, is that 
our military activities must support rather than lead our Nation's 
foreign policy. Our war fighting ability will never be in doubt. But we 
have learned from the past 7-plus years of war that we serve this 
Nation best when we are part of a comprehensive, integrated approach 
that employs all elements of power to achieve the policy goals set by 
our civilian leaders. This approach is crucial in South Central Asia. 
To this end, I believe we should fully fund the State Department as the 
lead agent of U.S. diplomacy and development, an action that would 
undoubtedly resonate regionally and globally. This approach obviously 
requires the backing of a robust military and a strong economy. As we 
win the wars we are fighting and restore the health of our Armed 
Forces, the military's approach will increasingly support our 
diplomatic counterparts through the persistent engagement required to 
build networks of capable partners. By operating hand in hand with 
partners and integrated with the interagency and nongovernmental 
organizations, we will more successfully protect the citizens of this 
Nation.
    On behalf of our servicemembers, I would like to thank Congress for 
the sustained investment in them and for your unwavering support in 
time of war.

    The Chairman. Well, thank you, Admiral, very, very much.
    Let me begin by following up on something that you just 
said. I think the testimony you read from--was that a summary? 
I think it was a little different from the statement----
    Admiral Mullen. Yes, sir.
    The Chairman [continuing]. We'd had previously. And you 
mentioned four priorities. Am I correct?
    Admiral Mullen. Yes, sir.
    The Chairman. Core security, setting the conditions for 
good government, sustainable plan for Afghanistan development, 
and deliver the civilian capacity.
    The question I think a lot of Senators have on their 
minds--I'm sure you'll hear it today in the course of some of 
the questioning--is, Is the delivering of a civilian capacity, 
in the way in which you're describing it, measurable in the 
context of the timeframe that we have? When do you measure 
success, in terms of that capacity being sufficiently 
developed? And is it possible that there's a narrower goal that 
could perhaps reduce the American footprint, but still meet 
America's security needs?
    Admiral Mullen. I think delivering civilian capacity, both 
ours and creating it for them, can't be done unless there's a 
secure environment. And with where we are right now--and this 
is the--I think this is founded very strongly in the AfPak 
strategy--with the level of violence in Afghanistan, the 
increasing insurgency in Pakistan, that security conditions 
must improve rapidly in order to create the conditions to allow 
the civilian capacity to, first of all, be established, and 
then grow.
    I was just in southern Afghanistan, Kandahar, Helmand, and 
I was struck by the fact that there are 13 civilians from our 
Government in all of southern Afghanistan, and that's about 
half the number that are in the PRT in northern Iraq--just for 
a comparison. We've got to generate more capacity in that 
regard, and they've got to--we've got to have a reasonably 
secure environment in which to do that. The leverage of a 
civilian--of an experienced civilian that can help in 
education, that can help in finance, that can help in the rule 
of law, that can help in the areas that we need to build 
institutions--and not just in Kabul; this is really at the 
local level, the provincial level--it far outweighs, on a per-
person basis, the leverage of military troops. So, we don't 
need thousands, but we need more than 13.
    The Chairman. Following up on that, again, I want to try to 
just push the envelope of what the options are so that we're 
all clear about what we're deciding, here. Al-Qaeda is 
basically situated, to the best of our knowledge, in northwest 
Pakistan, not in Afghanistan. Al-Qaeda is in Yemen. Al-Qaeda is 
in parts of the Horn of Africa and in other countries. But, we 
don't have the kind of military footprint in those----
    Admiral Mullen. That's right.
    The Chairman [continuing]. Countries we do here. And, 
nevertheless, we're tracking them, we're keeping a good eye on 
what they're up to, maybe not as in-depth as in Afghanistan. 
But, the question people are asking themselves is, Do we need 
to have that large of a presence in order to be able to protect 
ourselves against al-Qaeda? And might we better disperse these 
assets in a more effective way, more broadly, so that we're not 
on the ground trying to do what Alexander the Great couldn't 
do, the Soviets couldn't do, the British couldn't do, and many 
people are questioning whether or not we can, even under this 
new strategy?
    Admiral Mullen. I think it's a fair question, and yet, the 
strategy, I think--the comprehensive strategy across all 
elements of national power focuses on the overall requirements 
that must be developed, I believe, from a counterinsurgency 
standpoint, which includes the security piece, the development 
piece, the rule-of-law piece, the governance piece, and the 
ability to have a government in Afghanistan that actually 
delivers goods and services, including security, to its people. 
And that's just not going on right now. The--while al-Qaeda--
and a government and an environment in Afghanistan that does 
not permit al-Qaeda to go back, and that's fundamentally what I 
believe would happen, should the Taliban return.
    And, while al-Qaeda is not located in Afghanistan, and they 
are headquartered clearly in Pakistan, they--what I have 
watched over the last couple of years is this growing 
integration between
al-Qaeda and the Taliban and the various networks of the 
Taliban, whether it's Haqqani or Mehsud or Hekmatyar. And that 
has alarmed me in its growth and in its integration over the 
last--over the last couple of years. And it's that, quite 
frankly, that also is extant in Pakistan, which is moving 
toward Islamabad.
    So, the--clearly, with al-Qaeda resident in Pakistan, we 
can't send troops in there to do anything about that. I 
understand that. That's why the investment in, support of, 
relationship with, the people of Pakistan, the military of 
Pakistan, is so important, because in the long run the only way 
we're going to get at that is with them and through them, and 
that's going to take some time.
    The Chairman. We know that narcotics are part of the 
financial----
    We'll have order. I'm going to issue a warning. The 
committee will stand in recess until the police restore order.
    [Recess.]
    The Chairman. Order. There will be no demonstrations in 
this hearing. And if anybody chooses to do so from this point 
forward, they will be removed.
    Narcotics provide the critical financial basis of the 
insurgency, and we know that the insurgents collect about 10 
percent in direct taxes. This is known as the ``usher''----
    We will stand in recess. Can we have the sergeant at arms, 
police, please remove----
    [Recess.]
    The Chairman. Thank you. Thank you.
    Let me just make clear to everybody, one of the great 
things about America is our ability to have people voice their 
feelings. This is what we fight for, it's what we stand for, 
and everybody has a right to have their voice heard, but we're 
going to do it in a way that maintains the order and decorum of 
a good, viable discussion. And let me just say to anybody who 
might be thinking of standing up, we're having a good 
discussion here, and we're looking at this, fulfilling our 
constitutional responsibilities to examine this policy. I'd 
like to do that in a competent way, and these interruptions, 
frankly, are both disrespectful to that process and to the 
ability of people who are following this to be able to listen 
carefully. So, I'd ask people to do that.
    Let me say, also--and I want to make this clear--the United 
States of America did not ask to be in Afghanistan. Since World 
War II, there isn't an instance in which the United States has 
been attacked in the way that we were attacked. And the U.S. 
Congress voted overwhelmingly--I believe, unanimously--that 
this is the place that is the center of the war on terror, and 
a place that we ought to be involved.
    Now, how we're going to be involved is now under 
discussion. The American people did vote, and they got change, 
and they now have a change in policy. And Admiral Mullen is 
here to discuss that change in policy, and we intend to have a 
competent discussion of it. But, he and a lot of other people 
are doing their best to try to develop a policy that honors the 
sacrifice of every soldier on the front line, and we're going 
to respect that process.
    On the narcotics issue, Admiral, I understand that the 
biggest source of funding for local farmers is from protecting 
opium convoys in poppy fields. And in 2007, the U.N. Office of 
Drugs and Crime estimated that the core of the Taliban, under 
Mullah Omar, collected about $56 million from the usher tax, 
$133 million from taxes on refineries, and as much as $250 
million from protection fees. So, the Taliban are now earning 
about $\1/2\ billion a year from the drug trade, even though 
they're not running the drug trade. And $\1/2\ billion, as we 
all know, in that part of the world, is a lot of money.
    So, it seems that they're profiting from the cartels that 
have operated for a long time in the region, and there's 
considerable evidence linking the Afghan insurgency with those 
major drug traffickers. Can you share with us your judgment 
about how extensive those ties are, whether we should regard 
the insurgents and the drug kingpins as essentially the same 
threat, and tell us what you're thinking about how to tackle 
this with greater returns than we've had over the last 7 years.
    Admiral Mullen. Chairman, first of all, if I may, with 
respect to your statement about disparate voices and who we are 
as a country, it's literally why I serve and represent that.
    Second, with respect to the narcotics, the threat that's 
there, it's very clearly funding the insurgency; we know that. 
And strategically, it's--my view is, it has to be eliminated. 
There's--we have had almost no success in the last 7 or 8 years 
doing that, including this year's efforts, because we're unable 
to put viable livelihood in behind any kind of eradication.
    And so, the term I use is ``alternative development,'' and 
what--and Special Representative Holbrooke--and others--but, he 
has singled this out as an absolute requirement for the rich 
agricultural potential that actually is in Afghanistan. It was 
three or four decades ago, but there was a time when they fed 
their own people and they exported food. Those fields right now 
are full of poppies, and not full of agriculture.
    So, I think we've got to have a concerted effort, not just 
the United States, the international community, to displace it 
and to do it in a way that makes sense so that the season that 
I'm no longer growing poppies, I'm still able to feed my 
family.
    Second, your statement about most of the resources coming 
in transport, I understand that to be very accurate. There are 
varied estimates of how much it is. I've heard as low as $60 
million, up to what you say, which is $\1/2\ billion. Clearly, 
it is a significant resource that is funding the insurgency, 
and it is a very healthy mix of drug lords and Taliban. And I 
think we've--and I think we have to go after both.
    Recent rules of engagement have allowed us to go after 
labs, people associated with labs. That's a step in the right 
direction. But, until we get a--until we are able to execute a 
comprehensive agricultural strategy, it's going to be very 
difficult to really have a strategic impact on that, though I 
think we absolutely must, and that's a key part of this 
strategy.
    The Chairman. Senator Lugar.
    Senator Lugar. Admiral Mullen, as we've discussed today we 
have tried in this bill, S. 962, The Enhanced Partnership with 
Pakistan Act, to outline the thought that one of the attractive 
features of this is the idea that it would be at least a 5-year 
relationship. That commitment appears to have been, from the 
start, very attractive to Pakistanis, at least reflected in the 
press and comments made by government officials, on the basis 
of a fear that our relationship would be a fairly short one----
    Admiral Mullen. Sure.
    Senator Lugar [continuing]. That we would tire of this, and 
the American people would tire of it. But, the thought of 5 
years of commitment is attractive.
    Now, the dilemma--and we faced this as we quizzed 
Ambassador Holbrooke the other day--is that trying to sketch 
out a plan, while you and the Ambassador and others are doing 
so many other things, is very hard to explain to our 
constituents how education might be enhanced, how health care 
might change, or how civil governmental reforms might change. 
Who physically, in Pakistan, city by city or region by region, 
would be in a position to accomplish any of this, quite apart 
from, as you say, the constraints of the security situation 
such that American civilians, working with American military, 
would be able to be cooperative in all of this?
    Our legislation calls for 6-month reports; every 6 months 
throughout the 5 years, at least 10 reports, with some metrics 
as to how we're doing. And I think that's probably important, 
because this would proceed through at least 2\1/2\ Congresses 
and at least another administration for President Obama or 
somebody else. And the Pakistanis, we want to reassure, will 
not be forgotten, even if we have a congressional election here 
or a Presidential election.
    But, this is why I stress the need to begin to fill in some 
of the outline, because that will be important, to begin with. 
The American people have been given the impression of vast 
corruption in governmental officials in both countries, 
Afghanistan and Pakistan; fair or unfair, the need for some 
credibility of these procedures is of the essence.
    How do you see the progress of at least some outline, some 
report, some metric, some ability even to get to the first 6-
month report of this, quite apart from the rest of it?
    Admiral Mullen. When I go to the region, Senator Lugar, 
both in Afghanistan and Pakistan, the question, both stated and 
unstated, is, Are you staying, or are you going? We've left, 
before. And, you know, I'm reminded that it was a well-
resourced Mujahideen group that--from--by the United States, to 
fight the Soviets that--and, to some degree, we could argue 
about how much they're--I take it, you know, there is 
responsibility associated with that, and how much of that we 
accept is one thing. Believe me, the people that live there 
remember that, and then they remember, in both countries, one--
in both countries, we physically left after the Soviets were 
kicked out of Afghanistan, and second, we sanctioned the 
Pakistanis for that 12 years. So, that question is out there, 
and, I think, until it gets answered, and that's the trust 
issue, that we're going to--we're going to struggle in 
reestablishing this relationship, and that's going to take 
time, and that's why one of the things I argue for is patience.
    I think we know how to do this; meaning, the kinds of 
things, Senator Lugar, you were talking about. What needs to be 
done--sorry, I think we know what needs to be done. I think 
there are some significant challenges in the how-to-do-this. 
You've got to have the security umbrella. But, the key is 
education, long term. The key is village by village. The key is 
putting institutions, which are not corrupt, developing 
capacity at every level, including the district level, the 
subdistrict level, as well as the provincial level, which 
provide for their people. And that's what the people, certainly 
in the west of Pakistan, are calling for, and actually in other 
places, as well as the people of Afghanistan.
    So, it is--it is jobs, it is education, it's an ability to 
provide for oneself. There are things--we know what we need to 
do; it's a question of exactly how to do it, and that's going 
to take the engagement piece, that's going to take more than 13 
civilians in the southern part of Afghanistan.
    But, I also have great hopes, given that opportunity--and 
this isn't just for U.S. civilians--given that opportunity, 
that it's doable, and it will create capacity over time. But, 
it's ``over time.''
    So, fundamentally, the question is, Are we going to stay or 
go? And are we patient enough to see that through? We are 
starting a new relationship with both these countries, and 
that's going to take--with countries where we have an enduring 
decade-long relationship. I was just in Egypt; I was struck by 
the fact that we have--we have provided money to Egypt every 
year since the Camp David Accords, to the tune of about $1.3 
billion--and I was struck by the solid foundation of that 
relationship. Whatever our differences might be, very critical 
partner in a very critical part of the world. That's 30 years 
later, at a really critical time. We are beginning that kind of 
relationship with Afghanistan and Pakistan.
    Senator Lugar. Let me shift to an entirely different 
subject. You've mentioned--or, rather, the chairman, really, 
has--the importance of your relationship with General Kiyani. 
And this really is profoundly important. Now, in that 
relationship, is it possible, at some point, just picking up at 
least the experience we've had with the Nunn-Lugar Act in--with 
Russia and other countries----
    Admiral Mullen. Sure.
    Senator Lugar. Now, this was Cooperative Threat Reduction. 
Now, this doesn't mean that every country we've cooperated with 
has reduced all of their weapons, but it does mean that we 
shared the threat, we understood the mutual problems that were 
involved in this. And it seems to me this might be a fertile 
opportunity in due course, for cooperation between the United 
States and Pakistan so that we both understand the threats that 
we both face, and, likewise, have a degree of trust and 
cooperation that would be important to them, as well as 
ourselves.
    Admiral Mullen. I agree very strongly, and General Kiyani 
and I work on that all the time in our meetings and 
discussions, and in our chains of command, and that has to do 
with the relationship between Pakistan and India. And they've 
built a military that's been focused almost exclusively on 
that. That's shifting. He recognizes the extremist threat that 
he has in his country. When you look at the number of Pakistani 
citizens that have been lost to bombs in the last several 
years, and when you look at the number of his people--you know, 
over 1,000 soldiers have been lost in this fight, as well. And 
obviously in the tough fight they're in right now, those 
sacrifices continue.
    And he is shifting. I talked about the training I went to. 
A year ago, there--I was not aware of any counterinsurgency 
training, and there was a lot of criticism, Are they shifting? 
Again, we would like to see them do this more rapidly. That 
said, that's his army, his country, you know, his political 
leadership, his citizens, and, in the end, they decide how fast 
they're going to move in that direction.
    Senator Lugar. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lugar.
    Senator Feingold.
    Senator Feingold. Thank you very much, Mr. Chairman, for 
holding the hearing. It provides a nice counterpoint to last 
week's hearing with Ambassador Holbrooke. And given the 
critical national security issues we're discussing today, 
having the Defense Department testify before our committee 
helps to provide a full and comprehensive framework.
    And, Admiral Mullen, thank you for coming before the 
committee today. It is good to see you again.
    Admiral Mullen. Yes, sir.
    Senator Feingold. As the President and the Secretary of 
State have made clear, security in Afghanistan and Pakistan, as 
well as for us here at home, are inextricably linked. I 
appreciate your commitment to ensuring U.S. military activities 
support, rather than lead, our Nation's foreign policy, and 
that you have so candidly reminded us of how important it is 
for our military to be part of, as you put it, ``a 
comprehensive integrated approach that employs all elements of 
power to achieve the policy goals set by our civilian 
leaders.'' However, as you know, I am concerned that, by 
sending 21,000 new U.S. troops to Afghanistan, we may end up 
further destabilizing Pakistan without providing substantial 
lasting improvements in Afghanistan.
    Weak civilian governments, an increased number of 
militants, and an expanded U.S. troop presence could be a 
recipe for disaster for those nations in the region, as well as 
our own Nation's security. So, I look forward to discussing 
some of this with you.
    Admiral, at the hearing last week, I asked Ambassador 
Holbrooke whether he was confident that an increase in U.S. 
troops in Afghanistan would not somehow counterproductively 
drive militants into Pakistan and contribute to greater 
instability. I think you can certainly argue that that's what 
happened after 9/11. And what Ambassador Holbrooke said was--
I'm quoting here, ``No, I am only sure that we are aware of the 
problem, that we are working intensely with the Pakistani Army, 
that they are aware of it, that the lesson of 2001-02 has been 
absorbed.''
    Do you share the Ambassador's concern?
    Admiral Mullen. I share your concern with respect to that. 
Clearly, we're--first of all, I think the troop level is about 
right. I was just in RC East. We've recently added a brigade 
there in January. And General McKiernan, General Schloesser, 
who is the two-star that is in the eastern part of Afghanistan, 
from a force perspective, force laydown perspective, thinks 
that's about right. The 10,000 marines that go into southern 
Afghanistan here, starting now and throughout the summer, we 
think that is about right. And I am--I don't know of any other 
way to provide for the security--and what's also--the 17,700 is 
one; the other 4,000 who are going in, to get to 21, are really 
trainers, and it is--it is in the training capacity-building in 
both--for both the police and the military, that, as they take 
over their own security, that's absolutely key.
    But, I--your point--and I've discussed this with General 
Kiyani, very specifically--your point about insurgents going, 
particularly, in to Baluchistan, but particularly across that 
border, is one--we all share the concern for that. He shares 
the concern for that. Where I'm--where I'm comfortable is--at 
least planning for and having some expectation will allow us to 
address that, and that is going on, not just where I live, but 
certainly where General Kiyani is, as well.
    Could I--can I--you know, 100-percent certain that won't 
destabilize Pakistan? You know, I don't know the answer to 
that. I don't think it will, because we're aware of it, and I 
think--I think Pakistan is further away from being totally 
destabilized than a lot of people realize. The military and 
civilian leadership recognizes this potential, and so, we're 
addressing it ahead of time.
    Senator Feingold. Thank you, that's a candid answer. And 
I'm also concerned that, while the Pakistani military has 
undertaken--undertaking operations in Swat, they may be moving 
selectively against certain militants, and not necessarily 
going after key Taliban leadership in other critical regions. 
Have you--and you just mentioned this--have you seen a change 
in Pakistani behavior in Baluchistan?
    Admiral Mullen. Not significant, at this point. And where I 
find General Kiyani, in distributing his and apportioning his 
capability, and shifting his weight to the west, he does it in 
a measured way, and he does it within the capacity that he can, 
in terms of rotations. And, you know, being someone who is also 
fighting two wars, I have--you know, I have sympathy with the 
need to provide forces in two different places. And, in fact, 
one being a conventional fight, basically, and the other one 
being a counterinsurgency fight. So, he's changing on the run, 
and he's worked his way through Mohmand and Bonir and Dir, and 
he's now back in Swat. The key for Swat is to follow the 
military capability up, or the security up, with some hold 
capability, which gets to the importance of this bill, and to 
be--hold and build. And that's--he's moving--starting to move 
into that phase in parts of Swat right now. But, there's north 
Waziristan, southern Waziristan, Baluchistan, writ large, which 
he also knows is a problem. It's a question of, How do you 
execute a campaign plan? And you can't do it all at once.
    Senator Feingold. In testimony before the Senate Armed 
Services Committee last week, you expressed continued concern 
about cooperation between the ISI and the Taliban. And 
Secretary Clinton testified yesterday that the State Department 
is preparing contingency plans in the event that, 6 months from 
now, we continue to see members of the ISI supporting the 
Taliban. How would you recommend that we alter our military-to-
military relations, in the event that such support continues in 
6 months' time?
    Admiral Mullen. I haven't--I haven't taken myself out to a 
specific target date with respect to that, Senator Feingold. I 
have had lengthy discussions with, not just--well, actually, 
with PAC civilian and military leadership. The military 
leadership is critical here. And what I have watched General--
and certainly expressed this concern, and my belief has been, 
for some time, that I believe the ISI has to change its 
strategic approach in order for progress to be made on the long 
term.
    What General Kiyani has done, and the civilian leadership 
has done is changed out the leadership of that organization. 
Almost the entire leadership--not just Pasha, but the principal 
directorates, are all people that General Kiyani trusts. We've 
had this discussion. This has happened over the last 6 months.
    So, I think this is going to take some time. There's--you 
know, the ISI is very supportive in ways that--and 
constructive--in ways that we concur in. There are still 
challenges about connections with militants, and their support 
of those militants, as well. And I've constantly addressed 
those concerns, will continue to do that.
    I think part of that answer is answering the question about 
how Pakistan sees its future. Pakistan is--you know, created 
the ISI, and it is--its strategic approach has been to foment 
toward India, foment toward Afghanistan. And in their 
insecurity in that regard, the ISI has a mission. I think that 
that has to change. A lot of that'll change, I believe, long 
term, if they have more confidence in their own security.
    Senator Feingold. Thank you very much, Admiral.
    The Chairman. Thank you very much, Senator Feingold.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Welcome, Admiral Mullen. Great to----
    Admiral Mullen. Hi, Senator.
    Senator Isakson [continuing]. Have you back.
    Wednesday morning, I had breakfast with a Member of the 
Parliament of Pakistan representing the Punjab province----
    Admiral Mullen. Yes.
    Senator Isakson [continuing]. And we talked at great length 
about the current situation in the Swat Valley. He commented to 
me that his biggest concern is what will occur post-
confrontation, in terms of the need for reconstruction and for 
economic support in the Swat Valley and to the refugees from 
that battle. And in your prepared remarks you addressed the 
supplemental funding and the $497 million for, and I quote, 
``to help stem rapidly deteriorating security and economic 
conditions confronting Pakistan.'' Is that money, in your 
judgment, enough? And is it targeted in the area of the Swat 
Valley?
    Admiral Mullen. As best I can understand, Senator Isakson, 
it is certainly enough right now for the needs that we 
understand. The whole IDP issue--actually, I've been--the two-
star Navy admiral that we have who runs our Office of 
Development there was the lead for the earthquake relief, so he 
has an awful lot of experience in Pakistan, and great 
relationships. And the general that Pakistan has appointed, 
General Nadeem, is the right guy to address this issue.
    I've been impressed, from what I've seen--and obviously 
this is being here--with the initial efforts in that regard, 
even though it's grown to, on some estimates, as high as $1.7 
million. I've seen the camps. They're very well organized. 
Certainly, there's assistance that we've given, and I think 
that's critical, as well as other international organizations.
    But, it does--and so, the amount of money that's in the 
bill right now, as best I can tell, is both focused in the 
right areas, and will hit the target for the timeframe that 
we're talking about.
    Senator Isakson. Well, I am really glad that you made 
reference to the earthquake in your response, because the 
Member of Parliament, at that breakfast, made the comment that 
the positive----
    Admiral Mullen. Yes.
    Senator Isakson [continuing]. Feelings toward the United 
States in Pakistan were never higher than----
    Admiral Mullen. Right.
    Senator Isakson [continuing]. Following the earthquake, 
when we delivered so much humanitarian relief to that country.
    Admiral Mullen. Yes, sir.
    Senator Isakson. And he equated our helping with the 
economic and destabilizing situation in the Swat Valley to the 
level of aid provided following the earthquake, saying he 
believed it would bring back those positive feelings toward the 
United States.
    Admiral Mullen. The feedback I get from that part of 
Pakistan, in particular, is not unlike the challenges in 
Afghanistan, in the sense that there are people there waiting 
for their government institutions--local, you know, at every 
level--to deliver the goods and services. I mean, it has a 
counterinsurgency very strong threat to it, just like it does 
in other counterinsurgencies. And so, the ability to not just 
get the aid there, but then get it to the people--and that's 
the key that we've got to focus on--not just the United States, 
international organizations, NGOs--to deliver to the people, 
that's where the impact will be felt, and that's the Government 
of Pakistan's next step, as well as ours.
    Senator Isakson. And on the issue of local infrastructure 
with regard to Afghanistan, of those 4,000 troops that will be 
deployed for the training----
    Admiral Mullen. Right.
    Senator Isakson [continuing]. Most of them will be coming 
from Fort Stewart, in the 48th----
    Admiral Mullen. Yes, sir.
    Senator Isakson [continuing]. If I am not mistaken. I spoke 
with General Cucolo, who just returned from Afghanistan a 
couple of days ago. I also had a dear friend who was there 2 
years ago, Capt. Hunter Hill, one of the first to go in as a 
military police officer to help train the civilian police 
force. And, as I understand it, culturally, police and civil 
justice in local communities really did not exist in Pakistan.
    Admiral Mullen. Pakistan or----
    Senator Isakson. I mean in Afghanistan, I'm sorry. Are 
these 4,000 troops going to be the jolt that we need to get 
enough people on the ground to train these local folks?
    Admiral Mullen. This is the ``hold'' piece, really, which 
is--which are the local police. And this brigade, 4th of the 
82d, will, in fact, focus almost solely on training police. And 
it's that piece that we've got to--we've got to increase both 
dramatically in size and as quickly as we can. And we went 
through this--there was a time, not that long ago in Iraq, 
where there was--the MOI was corrupt, the Ministry of Interior 
was corrupt. We had great problems with the police in Iraq. It 
comes in after the military, meaning it's slower, we're 
progressing more slowly. And so, we know we have to do that. 
And so--but, fundamentally, this is the piece that will get at 
the ``hold'' so that when security is established, it actually 
will be sustained.
    Senator Isakson. Thank you very much for your service and 
leadership.
    The Chairman. Thank you, Senator Isakson.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Admiral Mullen, it's a pleasure to have you before----
    Admiral Mullen. Hi, Senator.
    Senator Cardin [continuing]. The committee. We thank you 
very much for your service.
    I want to get your views on the challenges that are being 
posed because of nuclear weapon capacity in that region. We 
know that Pakistan has the capacity and India has the capacity. 
We are unclear as to whether they are increasing their capacity 
or not. There's always the issue about the stability of the 
government with relation to the control of nuclear weapons in 
Pakistan, at least that's an issue that has been talked about 
frequently more recently. And then there is the development 
within Iran, and the pressure that that puts within the region 
on nuclear issues.
    So, I would just like to get your assessment as to how you 
see these developments challenging our goals in that region, 
and whether you have any specific recommendations.
    Admiral Mullen. I am extremely concerned about the whole of 
issue of nuclear weapons in the region. Senator Webb asked me, 
at a hearing last week, about whether or not the Pakistanis 
were increasing their inventory, and my answer to that was a 
single word, which was ``yes.'' And in an open environment, I 
wouldn't want to talk more about that right now.
    I was struck with the Mumbai attacks, that 10 terrorists, 
obviously supported by more, could move--with relatively simple 
technology--I mean, AKs, hand grenades, cell phones, and a 
Garmin GPS receiver--could move two nuclear states closer to 
war. That really alarmed me. It took on a new--for me, a new 
perspective on terrorists. This wasn't about hitting one 
country or one building or a series of buildings or, you know, 
sort of a single attack, but, strategically, that really got my 
attention, in terms of how--the impact that terrorists can 
have, and the need to address that and then move these 
countries who have had, certainly, a spotted history, with 
respect to this, and obviously they're both nuclear-capable 
countries.
    I am confident in the controls that the Pakistanis have on 
their nuclear weapons. That's basically under the military. 
We've invested a significant amount of resources through the 
Department of Energy in the last several years. They've 
improved those dramatically. They still have to improve. They--
and that being said--and I'm also comfortable with the command-
and-control architecture that is in place to both control them 
and make decisions about whether they'd use them or not, and 
that we have--we have an understanding of that.
    Moving to Iran, I--and I'm one who believes that Iran 
getting a nuclear weapon is calamitous for the region and for 
the world. And part of me--it's addition to having it and 
destabilizing it. It then, in my view, generates neighbors who 
feel exposed, deficient, and then develop or buy the capability 
themselves. So, I'd just take that region and--if I take India 
and Pakistan and what's going on there with respect to nuclear 
weapons, and now I just project that to the gulf region, 20 or 
30 years from now, I just think the downside potential is 
absolutely disastrous.
    So, that's why I feel--one of the reasons I feel so 
strongly about, you know, Iran not achieving that objective, 
because I think it's incredibly destabilizing now, as well as 
in the future. And I think--I think, you know, big powers, 
major leaders, internationally, have got to come together to 
arrest this growth, or the long-term downside for the people in 
the world is really, really tragic and drastic.
    Senator Cardin. Well, I appreciate that response. It 
appears like we do have a common interest with our allies 
around the world to make sure that does not happen, and that we 
need to energize that group if we're going to be effective in 
our policies to prevent Iran from becoming a nuclear power and 
to deal with the current threats in that region.
    I want to change gears and just mention one other issue. I 
had the opportunity to chair the Helsinki Commission in the 
Congress in the Organization for Security and Cooperation in 
Europe. I mention that because one of the President's stated 
goals in Afghanistan is to bring in more international presence 
in----
    Admiral Mullen. Yes.
    Senator Cardin [continuing]. Dealing with objectives, 
whether it is civilian or governmental capacity. Currently, 
Afghanistan is a partner in OSCE for cooperation, and there are 
OSCE resources in Afghanistan--I believe mainly dealing with 
border security or border training issues.
    One of the suggestions being made is that Pakistan might 
want to consider becoming a partner in the OSCE, allowing that 
organization's capacity to bring in resources to help build 
governmental capacity and civilian capacity. I mention that 
because I think your involvement here in trying to bring in 
more international support for nation-building is a positive 
step in the United States objectives in both Afghanistan and 
Pakistan, and would just urge you to focus on this and see 
whether we all can have a workable strategy.
    Admiral Mullen. Senator, I spent most of my time in NATO, 
obviously, in Europe, because of that alliance and my 
responsibilities, but what I'd do, if I were going to use NATO, 
and I'd--they're--I'm not trying to directly compare OSCE and 
NATO, except to say where I see NATO going is increasingly 
toward a broader and more in-depth relationship with Pakistan, 
because of the common interests. General Kiyani asked--sorry, 
the chairman of the Military Committee in NATO asked General 
Kiyani to come to the Military Committee last year, and he came 
and laid out, you know, a very clear view to the military 
CHODs, the chiefs, from all 28--or, 26 countries at the time. 
There are ongoing discussions in various venues outside the 
military to connect more internationally through these 
organizations, alliances, whatever they might be. And I see 
that as growing. And certainly the capacity in some of these 
other areas that other organizations have and represent are 
critical, and the more that we can do, and the sooner we can do 
it, I think the better off we'll be.
    Senator Cardin. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Corker.
    Senator Corker. Mr. Chairman, thank you.
    And, Admiral, thank you for your service.
    Admiral Mullen. Senator Corker, good to see you.
    Senator Corker. One of the first high, high military people 
I met when I came here, and I certainly appreciate your 
service.
    I wonder--I missed part of your testimony--I read your 
testimony last night, I missed some of the other questions, for 
the markup, and if I'm being redundant, I apologize. But, I 
wonder if you might just state what our mission in Afghanistan 
is.
    Admiral Mullen. It's a mission that tied to the Afghanistan 
and Pakistan strategy; it is to make--it is basically to ensure 
that governmental organizations, security organizations, 
development organizations, economic, rule of law, all those 
things, are put in place in such a way that an environment to 
which--or, in which the
al-Qaeda could return is not possible. And I believe--first of 
all, I think there's a strategic goal the Taliban have, is to 
move back and take over the country, and then, second, in that 
goal, in that environment, that that is fertile ground for al-
Qaeda, who continues, not just to be in Pakistan, but is now 
moving into Yemen, is connected very well in Somalia, and in 
other parts of the world--and their strategic objectives remain 
the same--to threaten us, to threaten the West--and that 
fertile ground to do that would be Kandahar and Kabul again if 
we don't get this right.
    Senator Corker. So, does that mean, listening to testimony, 
that we will be doing the same thing we're doing in Afghanistan 
in Yemen and Somalia soon?
    Admiral Mullen. No. I'm increasingly concerned about the 
growing safe havens----
    Senator Corker. Well, what----
    Admiral Mullen [continuing]. That are in Yemen and that are 
in--that are in Somalia. And those are--those are issues that I 
think the international community's going to have to address, 
because al-Qaeda's not going away, at least at this point.
    And that said, the very proximate location of al-Qaeda, you 
know, in the border area to Afghanistan gives them an 
opportunity to return very easily.
    Senator Corker. So, is the difference between us not being 
in Somalia and Yemen the fact that we just happen to be in 
Afghanistan already? I mean, I'm having a----
    Admiral Mullen. No, I think----
    Senator Corker [continuing]. Hard time----
    Admiral Mullen. I mean, Afghanistan is the place from which 
9/11 was originated. Al-Qaeda was there, and can----
    Senator Corker. But, those----
    Admiral Mullen [continuing]. And can return----
    Senator Corker. But, those guys are not there today, right?
    Admiral Mullen. They're--no, they're not. They're--plenty 
of their agents are there. Believe--they're very well connected 
with the Taliban. They have mutually converging goals. And, in 
fact, you know, their headquarters and their leadership is in 
Pakistan, not very far away.
    Senator Corker. Well, so let me ask you this. I--the--what 
you laid out sounded to me like we're nation-building in 
Afghanistan. So, I mean, that--everything you just laid out, 
we're, in essence, taking a nation that was basically hollowed 
out in earlier years, and we're building it, is--would that be 
a fair statement?
    Admiral Mullen. I would--I think that, to some degree, 
we're speaking about things that were there before, and to an 
additional degree, we're talking about things that haven't been 
there----
    Senator Corker. But----
    Admiral Mullen [continuing]. In any kind of capacity----
    Senator Corker. Yes.
    Admiral Mullen [continuing]. In the past; let's say, 
economic--or in----
    Senator Corker. Yes.
    Admiral Mullen [continuing]. In the recent past, for sure.
    Senator Corker. But, in Iraq, at least they had been 
accustomed to a central government. In Afghanistan, that 
certainly is not the case; it's a tribal country. And so, in 
essence, in many ways our task in Afghanistan, as far as 
building a nation, is much greater than in Iraq. Is that 
correct?
    Admiral Mullen. Actually--I mean, I'm--I would--in terms of 
building a nation, yes, because of the resources they don't 
have. But, in terms of the requirements--and it's in Iraq, as 
well--we're not just in Baghdad; I mean, we're in local 
governments, provinces throughout Iraq. This is not going to 
work in Iraq, and it's not going to work in Afghanistan unless 
we build that capacity at the districts, the subdistricts, in 
the villages of Afghanistan, as well as some capability--
institutional capability in Kabul.
    Senator Corker. So, if I understand what you've said--and I 
respect you tremendously, and certainly appreciate your 
service--we are nation-building in Afghanistan. So, let me 
just--I think that's been made clear. And that, to me, has been 
said over and over again, kind of, sort of. I think the part 
that we're leaving out more so in Afghanistan is, we're not so 
sure about building a really great democratically functioning 
country, because of some of our partnerships and other kinds of 
things, but we, in essence, are nation-building.
    So, let me just move on, then. I have asked for some 
benchmarks and objectives. Look, I support our military, I 
support our country's efforts to, certainly, root out 
terrorism, the transnational type that will affect us, 
certainly. I've asked for some objectives and benchmarks. I 
think we have finally made a deal on the floor that, in this 
supplemental, there will be--the National Security Council or 
somebody will have to come forth and----
    Admiral Mullen. Right.
    Senator Corker [continuing]. Tell us what our objectives 
are. By the way, I think that would be very helpful to the 
President of Afghanistan----
    Admiral Mullen. Sure.
    Senator Corker [continuing]. Who I don't think has a clear 
idea, either. So, it would help him. OK? Certainly help us, I 
think, as legislators, to know what it is that our objectives 
are, some benchmarks, and then some reporting. You don't have 
any----
    Admiral Mullen. Well----
    Senator Corker. There's no strings attached, there's no 
timetables; it's just asking you to tell us what our objectives 
are, and to benchmark those, and to give us reports. You have 
no issue with that, do you?
    Admiral Mullen. None. No, sir, I am a big fan of 
benchmarks. They are being developed. I think they'll be 
available in the very near future, and I think we do need to 
assess ourselves, later this year or early next year, about how 
we're doing, and then adjust the strategy accordingly.
    Senator Corker. Can you----
    Admiral Mullen. And it covers----
    Senator Corker [continuing]. Imagine----
    Admiral Mullen. And it will cover the security area, the 
economic development area, the rule-of-law/governance area, and 
it'll go national to local.
    Senator Corker. So, I guess--I know my time is up--I guess 
the one thing I've learned over the last 2 years and 4 months 
is that if we, as a country, plant our flag in another country, 
we're going to be there until we rebuild that country. We've 
been Afghanistan for 8 years now. Based on what I'm hearing you 
say we need to do in others--and I understand that it--we don't 
want it to be a safe haven for transnational terrorism; I 
understand that. But, it sounds to me like there's a great 
possibility that we will be there another 8 years, that this is 
a long, tough, slog.
    Admiral Mullen. It is a long----
    Senator Corker. And once we----
    Admiral Mullen [continuing]. Tough----
    Senator Corker [continuing]. And once we put our flag down, 
it's very tough to leave, because, more than just as in Somalia 
and Yemen, where we have the same similar dynamics--I repeated 
myself--similar dynamics, OK? In Afghanistan, the fact is--
another reason is, we're there, and once we plant our flag, we 
don't want to leave folks behind that have been supportive. 
But, once we're there, we're going to be there for the long 
haul until that country is rebuilt, even though our partners 
may be corrupt, even though our partners may not share our 
goals, even though our partners actually are hugely benefiting, 
because their country's budget couldn't even pay for half of 
their army, I don't think. So, while we're there, we're 
building roads, we're doing everything that they cannot do 
themselves. And so, the longer we're there, the better they are 
as it relates to their own country. And that's something I 
think all of us need to understand and know, that once that 
flag goes down, we're probably going to be there until that 
entire country is rebuilt. And I don't know if you want to 
rebut.
    Admiral Mullen. Just--I'd only comment, sir, that the flag 
went down in 2002. We have not resourced Afghanistan, haven't 
even come close to resourcing Afghanistan, to put ourselves in 
a position to succeed since then. That's where we are now. I 
take your point about, this is the eighth year of war. I 
understand that. That said, we have gotten to a point now of a 
much more comprehensive view and a commitment and ability to 
resource it. And it's not 2002; the conditions have changed 
dramatically in Afghanistan. And I think this strategy, with 
its objectives, gets at the future, recognizing where we are 
and the requirements that we have.
    Senator Corker. And I applaud you for that.
    Thank you.
    The Chairman. And you support the bill.
    Senator Corker. The supplemental? [Laughter.]
    The Chairman. We're trying to figure it out.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Admiral, thank you for your exemplary service to our 
country. We----
    Admiral Mullen. Thank you, Senator.
    Senator Menendez [continuing]. Appreciate it. I've been 
questioning our Pakistan side of this----
    Admiral Mullen. Sure.
    Senator Menendez [continuing]. Equation in the last several 
hearings, and you've probably given me the greatest sense of 
solace here, about being a big fan of benchmarks and making 
commitments to it, because I asked for a GAO report, with 
Senator Harkin, about what we did in Pakistan over the last 
several years. We've spent $12 billion, and we have very little 
to show for it.
    Admiral Mullen. Yes.
    Senator Menendez. And now I'm looking at a supplemental 
that has about $1.6 billion in it, in this vote probably later 
today--$400 million for the Pakistan Counterinsurgency 
Capability Fund, $439 million in economic support funds, and 
$700 million in coalition support funds. That coalition support 
funds is largely what we haven't accounted for in the last 
effort.
    So, I have two lines of questioning that I hope you can 
help me with. One is, Can you tell me that, in fact, we've 
improved and will have the accountability necessary for these 
funds, moving forward? Which was not the case in the past. No. 
1.
    No. 2--if so, how? No. 2 is, in April we saw reports coming 
out that the Inter-Services Intelligence--the ISI--in Pakistan 
was actually assisting the Taliban. That was April. That was 
just last month. And now I understand that the Pakistanis are 
on the offensive, but I'm wondering, What is ISI's role, here, 
at this point in time? How engaged are they? Because when I 
look at those reports, when I look at the release of the video 
of our CIA Director, which should have been a private meeting 
and obviously was meant to undercut whatever that conversation 
was, and when I look at the set of circumstances of acquiring 
nuclear weapons when we are giving money--money's fungible, at 
the end of the day--it makes for a concern for me. So, as I 
hear a new strategy, particularly on the Pakistan of this 
Afghanistan-Pakistan equation, I get concerned.
    So, help me out, here, if you can.
    Admiral Mullen. Money is fungible. I understand that. I 
spoke earlier about our investment in Egypt, post-Camp David 
Accords, over 30 years now, which was significant in providing 
a long-term relationship in a really critical part of the world 
and that I think we're starting over. Actually, I would argue 
we're starting in a hole with Pakistan because we sanctioned 
them for 12 years. So, it's not even like a fresh relationship. 
The question they ask is, Are you sticking around? And that has 
an impact on ISI's role, and I'll come back to that.
    We have not had good controls on the CSF, the Coalition 
Support Funds, although they're not the only country that gets 
them. And we have improved that fairly dramatically in the last 
year, year and a half, so it gets audited at the Embassy, by 
our military team there, it gets audited again in CENTCOM, and 
it gets audited in the comptroller's office at SECDEF's level, 
when the requests come back. And these are--Coalition Support 
Funds are funds which essentially reimburse them for 
operations. So, they asked, most recently, for $1.5 billion, I 
think, and out of that, we approved about $400 to $500 million, 
if I remember the figures correctly. So, the controls are much 
more focused than they were a year ago. So, that's one point.
    In the PCCF piece--this is basically money that we--and 
FMF, for that matter--that we, essentially, administer, so we 
see where it goes.
    Going back to CSF for just a second, when we reimburse 
them, it goes into their treasury, just like we would put it in 
our treasury, so tracking it--tracking what happens to that 
$400 million once it drops into their accounts, we can't do 
that. The controls that we have on the PCCF, the FMF, or we 
would have if it gets approved--essentially, we would look to 
that, and it would be the Embassy, and certainly the military 
section, for the military areas, to see if it, in fact, bought 
helicopters, bought ISR, bought training, and we saw an 
increase there, and we could measure that over time and we 
could look at it over time. I don't know how much we can, in 
the next 6 months, to the direction of report every 6 months 
how we're doing, but certainly over time we'd be able to do 
that, if we have that time.
    So, I'm confident we've got more visibility. We will have 
more visibility than we've had in the past.
    What I've also learned in the 18 months and 10 trips that 
I've taken to Pakistan, a couple of things that don't work for 
them, or really have an impact on our ability to move forward. 
One is public criticism. And I've found that out personally, 
I'm not--this is because I have. And then, second, are 
conditioning. And we--as I've looked back through our history, 
we've had conditions on financing and programs, and we've not 
had. So, I would only ask that, as we condition things, we 
create as much flexibility as we can, and then look at it over 
time, as opposed to heavy conditions up front that almost make 
it impossible to get started.
    And then, the new piece is--controls are good. I believe 
that command and control, security measures on the part of 
them, have improved dramatically in the last several years. 
We've put resources, so have they. They still need to improve, 
and that the military has good visibility on the weapons, as 
well as their security, as well as if and when they'd ever be 
put in a position to be used.
    Senator Menendez. The ISI?
    Admiral Mullen. The ISI is an organization that, as long as 
last summer, I've talked publicly about needing to change its 
strategic direction. I think, at a very high level, it gets to 
the question of how Pakistan ensures its security, and it has 
historically done that by agitating, both in Afghanistan and in 
India. And to the degree that they're secure, they feel good 
about their security in the future, I think that that argues 
for, and presents potential for, a strategic shift.
    Kiyani has changed out the--all the principal leaders in 
the ISI with his people. He certainly knows of our concerns, 
because I've expressed them. And there's ongoing work. That 
said, there's a gray area in the ISI that many of us don't 
understand, and clearly those kinds of connections that you 
talked about have been there, and they need to cease at some 
point.
    Senator Menendez. I appreciate your answers. Let me just 
make one comment, and then I'll cease; $12 billion later, 
largely without conditionality, it may not have worked for 
them, but it certainly didn't work too well for us.
    Admiral Mullen. Yes.
    Senator Menendez. Thank you.
    The Chairman. Thank you, Senator Menendez.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    And, to Senator Menendez, I actually offered an amendment 
yesterday, on the exact point that you just made. I'm going to 
discuss it in a minute with the Admiral. I think it's a very 
valid point.
    Admiral, with respect to your comments about our exchange 
last week, let's let the record show that we both left it as a 
yes----
    Admiral Mullen. Yes.
    Senator Webb [continuing]. That I also declined to pursue 
that, because of venue, and I will not pursue that in any 
detail today.
    Admiral Mullen. Sure.
    Senator Webb. I would like to start by saying something 
about what Senator Corker was mentioning, and that is that I 
don't believe it's always necessary that, if the American flag 
goes down, that we end up staying to rebuild a nation. It has 
happened, I think, pretty frequently over the past 8 or 9 
years. I wrote a piece in the Washington Post, 6 months before 
the invasion of Iraq, basically saying this was a strategic 
error and the subheading of the piece was, ``Do You Really Want 
To Be In Iraq for the Next 30 Years?'' And I think that Senator 
Corker made a very valid point, in terms of how we define our 
strategy, when he raised Somalia. It's another failed state. We 
see al-Qaeda relocating. So, the question here is valid. We 
need a strategy that has clearly articulated endpoints, not 
simply benchmarks, so we really know where we are going.
    With your, I think, very valid comments about people in 
this region needing to know--or asking you the question, ``Are 
we going to stay or are we going to go?'' I think we still need 
to be very careful in terms of how we are articulating what 
that means to us.
    Admiral Mullen. Sure. Yes.
    Senator Webb. Militarily, we should go, at the right time. 
I think everyone should know that. Diplomatically, culturally, 
we should be staying. But, when I see the situation with the 
Pakistanis, the hesitation that I have, in terms of the way 
these are being presented, is that they should understand that 
there is reciprocity, in terms of understanding interests. You 
know, your comments are that we need to understand the world in 
terms of how they are seeing it and in terms of recent history. 
But, they need to understand in terms of us. And that's why I 
asked the question about their expanding their nuclear 
capability. And this is not simply a question of whether we 
should be addressing that in a visible way, but it does relate 
to how Americans see the measure of assistance or--that it's a 
very complicated environment, where they have other strategic 
concerns. And it also relates to how we are perceived around 
the world, outside of Pakistan, in terms of potentially being 
seen as assisting in a program, when, in reality, we are trying 
to discourage proliferation.
    So, with all that in mind, I drafted an amendment 
yesterday, and introduced it yesterday. Essentially, my thought 
at the time, and with some discussions we had after I had 
introduced the amendment, in terms of refining it, was that we 
could just clarify this. We could basically have a 
certification saying that none of the moneys that were 
appropriated were going to go to support, expand, or in any way 
assist the development or deployment, the active deployment, of 
nuclear weapons, or to support programs or purposes other than 
those in the appropriations measure. And that actually goes to 
Senator Menendez's comment, which you and I discussed last week 
in a different way, about the $12 billion in various forms that 
have gone over there, and the inability to follow the money. 
This isn't simply a comment about their nuclear program, which 
is the way I think it has been perceived; it's a comment about 
removing the opaqueness from the process, getting a comfort 
level from the U.S. perspective, and basically saying, ``Yeah, 
we're not doing this. We're not contributing to corruption, 
we're not contributing to a program that they are developing in 
a strategic area that is outside of where we do have agreement.
    And I understand there are some significant hesitations 
from the administration on that amendment. I wonder if you 
could clarify that.
    Admiral Mullen. I haven't seen all the hesitations. I've 
gotten some feedback on it, Senator Webb. Probably the biggest 
concern is the conditioning of all the money against that 
requirement and the ability to actually do it, and to be able 
to do it so quickly.
    Where I am on these kinds of things is--and I don't have a 
rich history, in the last 8 years, in terms of CSF and, you 
know, how it started and--you know, I mean, all the kinds of 
moneys that we sent. And I recognize it's a lot of money, and I 
would certainly--you know, certainly in many ways, didn't 
deliver what we had hoped it would deliver.
    What I'm asking for is some time on these conditions so 
that the conditions aren't so rigid that we can't get started.
    And I agree with, and take your point about, this isn't 
just about the Pakistani people, this is--these are--these are 
American dollars that are funded by American people at a very 
significant financial time in our lives. And I don't think--I 
don't think we'd have different objectives, I just think, How 
do you get there? And what I understand about your amendment is 
that it would really restrict and condition almost every dollar 
we take to them, and then I get to a point--you know, can I do 
it? Can I even execute it in time that's going to make any 
difference, where time is so critical?
    Senator Webb. Well, that's certainly not the intention of 
the amendment. And one of the strong focuses here, as I 
mentioned, is that we do not want to be perceived, outside of 
the nature of this relationship, as being in any way assisting 
that. And, at the same time, I take the point, this is 
strategically--it's off the table from the area that we are 
working with Pakistan on.
    Admiral Mullen. Yes.
    Senator Webb. I go back, actually, to the instability that 
came out of the Iran-Contra situation, when we were pushing 
around the world, saying, ``We're not going to support 
terrorism,'' and then it came out that we actually were giving 
weapons to Iran in this sub-rosa program, and it dramatically 
affected our credibility. This is an attempt just to clarify 
that.''
    And I think what I would like to do, since this has 
involved our staff over the past week, is to sit down and work 
with you and perhaps the National Security Council, and let's 
come out with a way that we can inject transparency and 
accountability into the process, for all of the reasons that it 
went the other way after 9/11, but in a way that would be 
workable.
    Admiral Mullen. Transparency, in our process, I think--you 
know, clearly committed. Getting transparency into what 
Pakistan does is going to be a--going to continue to be a 
challenge. The--it's the sovereign-country piece, it's the--
they'll only tell us so much. Not that we don't know more than 
we used to; I just think it's----
    Senator Webb. But, in terms of where American money goes, 
this is----
    Admiral Mullen. Right.
    Senator Webb [continuing]. Where reciprocity comes in.
    Admiral Mullen. Understood.
    Senator Webb. And we require it in other areas. They need 
to understand us every bit as much as we need to understand 
them. So, I will look forward to working with you on it, sir. 
Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Webb.
    Let me emphasize, Admiral, that General Kiyani needs to 
know it. General Pasha needs to know it, President Zardari and 
others need to know it--and that is while they are coming to us 
and asking us for additional assistance--and we understand the 
stakes--there is a significant unease here in the Congress, in 
all of us, for what has happened previously in the----
    Admiral Mullen. Yes, sir.
    The Chairman [continuing]. Transfer of our funds. And many 
of us did not learn, until last year sometime, that, for those 
6 or 7 years that the prior administration was supporting and 
transferring very significant sums of money to Pakistan, they 
didn't have a clue where it was going. And we learned, 
subsequently, that most of it, particularly funds that were 
ostensibly being spent to support their military, was going 
into their general revenue, their general budget, and being 
spent simply to sustain normal activities in Pakistan. That is 
not going to fly, here. And they need to know that, point 
blank, which is why Senator Lugar and I have put in our 
legislation what we think is adequate levels of scrutiny, 
accountability, benchmarking, and so forth, without getting to 
a point where you begin to create havoc, in terms of the 
relationship and the sovereignty issues and all the rest of it. 
I don't think that anything we've done is insulting. I think it 
is a protection to the American taxpayer. I think it's a de 
minimis expectation----
    Admiral Mullen. Sure.
    The Chairman [continuing]. From the Congress, and I would 
hope you would agree with that and----
    Admiral Mullen. Yes, sir; I would.
    The Chairman [continuing]. Convey that as powerfully as 
possible to your counterparts. And to the degree you want to 
point to us as the people putting these requirements in place, 
please do so.
    Admiral Mullen. Sure.
    The Chairman. We're happy to do that.
    On this track, there was, yesterday, in the New York Times, 
a front-page story suggesting that arms procured by the 
Pentagon have leaked from Afghan forces for use against 
American troops. And that raises the question of the Afghan 
controls on the vast inventory of weapons. Can you speak to 
that a little bit and just comment on that story and share with 
the committee the steps the Pentagon is taking to deal with it?
    Admiral Mullen. That weapon--there were 10 weapons in that 
story, not one of which was--had been--had come out of the 
Afghan National Auxiliary Police issued in February 2007, a 
unit that no longer--an organization that no longer exists. 
There have been significant steps taken with respect to this. 
In 2008, General Cone, who was head of the training of the 
Afghan--American major general who was head of the organization 
which trains and equips the Afghan National Police and Army, 
and subsequently General Formica, who relieved him, put in very 
strict controls. And so, that story was focused, 2007, some 
concerns in 2008, and we put in very strict accountability and 
auditing controls on those weapons.
    The ammunition that was spoken to in the story, we've been 
unable to source. It--there were various--there was varied 
ammunition there. But, we recognize the serious potential 
there.
    And the other thing that's happened is, Minister Atmar, who 
I know you know, who is the Minister of Interior, has also 
initiated, in recent months, very strict controls and 
accountability in the police, as well.
    So, significant steps taken. Certainly don't--you know, 
we're not in the--we're not going to be in a position of 
issuing weapons and issuing ammunition that's going to come 
back on us.
    The Chairman. I would assume so, and I'm glad to hear that 
explanation, and we thank you for it.
    Also, the committee would be interested to know, in the 
context of this larger shift in American policy, perhaps you 
could share with us the expectations you now have about how 
this policy will be implemented differently under the 
leadership--it's not a small deal when you make a change of 
command. You've chosen to do so, you've obviously chosen to do 
so with a purpose in mind. And if you could share with the 
committee the expectations that you have now, from General 
McChrystal's assumption of command, I think that would help us 
understand how we're moving down a different road here.
    Admiral Mullen. Certainly not presuming confirmation of 
General McChrystal, and, I think, also General Rodriguez, it is 
their--it is the respect and regard that these two individuals 
are held in by such a broad spectrum of people that actually 
gives me great hope in their ability to lead at this time. It 
is a very critical time, 2009 and 2010. It's my belief we've 
got to stem the violence, over the next 12 to 18 months there, 
to put ourselves in a position to develop these other 
capabilities--and we've talked about that--in classic 
counterinsurgency form.
    I have great faith in both of them. General Rodriguez, who 
will initially be the United States deputy there, was the two-
star commander in RCE, so he has a wealth of experience in 
Afghanistan. General McChrystal had been in theater and 
fighting two wars for the better part of almost 5 years before 
he was brought back. I've watched him, as my director over the 
last year. That was malice of forethought to understand him. 
One, I admired him greatly, far beyond his ability to hunt down 
terrorists, which he did better than anybody else, but it's 
really his expanded mind, his intellectual capability for--and 
understanding of what really needs to happen here.
    And so, I would expect him to take significant steps in the 
area of Afghan civilian casualties. We cannot proceed forward--
if we're killing Afghan civilians, we're backing up. And we've 
got to protect our own people, certainly; obviously, carry out 
the missions; but, we've got to be more protective of Afghan 
civilians. So, that's a specific charge.
    He understands the fullness of the challenge. I look for 
his assessment, when he gets there, to say, ''This is what I 
need to do,`` before I'd say it's going to change, one way or 
the other.
    The Chairman. Well, Admiral, I know you have a White House 
meeting and a fairly hard departure here, and that's the 
appointed hour, so if I could just say to you, first of all, I 
personally admire your leadership enormously. And I've watched 
you dig into this issue, and I know you've done a lot of 
reading and examining in quarters that aren't normally the 
areas that the Pentagon digs into. And I respect the fact that 
you're doing that and looking at all of the aspects of this 
challenge.
    I would just say to you that I think it is a mistake for 
us, as a country, to overly raise the stakes in the context of 
the language of war. This is a counterinsurgency challenge, 
above all, as you know, and you've defined it that way. And the 
normal applications of warfighting are not what are going to 
win this.
    Admiral Mullen. Right.
    The Chairman. And you know that. This is going to require 
America's significant commitment on the things that--I can't 
figure out yet whether Senator Corker supports it or doesn't 
support it, in terms of those efforts, but I think he's been 
accurate in defining some of it. It is impossible to define, 
getting to a place where you have a sufficient level of 
stability, where you have a sufficient level of reliance on an 
Afghan army, a sufficient level of reliance on a police force, 
a sufficient presence of a structure of civilian institutions 
that you can pull back with confidence that the insurgency 
doesn't just take over, that al-Qaeda doesn't just return--it's 
impossible to get there unless you have done some of this sort 
of groundup----
    Admiral Mullen. Sure.
    The Chairman [continuing]. Rebuilding.
    Admiral Mullen. Right.
    The Chairman. For a lot of people, that's a tough 
confrontation up here----
    Admiral Mullen. Sure.
    The Chairman [continuing]. Because many people have always 
opposed that kind of thing. I think it's the natural state of 
the new beast that we confront. But, it's not a traditional 
war. And I think we sort of get into our box when we frame it 
that way.
    I'd like to see our military footprint be as small and as 
careful and as restrained as humanly possible. I know we're 
going to need to do some special ops. We're going to have to 
take out bad people when that opportunity presents itself. But, 
to the degree we can give people a sense of security with a 
minimal amount of proactive, big operation, traditional 
military kind of footprint, the better off we're going to be, 
here.
    Admiral Mullen. Chairman, there is nobody that understands 
that better than Stan McChrystal.
    The Chairman. Well, that's why I think this is a pivotal 
moment for us. And obviously the next months are going to be 
key to that. We stand ready to work with you as closely as we 
can, and we understand the difficulties.
    And I repeat, for those people who are concerned about the 
presence, we're all concerned about it; we're there for a 
purpose, and that's to protect the security interests of our 
country from a repeat performance of what we experienced in 
2001, and we're trying to find the best way to do that. We are 
certainly not there because it's a place of choice.
    Admiral Mullen. Right.
    The Chairman. It's a place of obligation----
    Admiral Mullen. Sure.
    The Chairman [continuing]. And critical to our security.
    So, we thank you for your thoughtfulness here today. We 
need your help on this legislation, and we'll look forward to 
continued work with you.
    Senator Lugar.
    Senator Lugar. Just one more comment, Mr. Chairman.
    I appreciate very much the comments you've made about 
General McChrystal. This is probably too concise a summary, but 
he has been successful in hunting down terrorists.
    Admiral Mullen. Right.
    Senator Lugar. Frequently, no one knew where he was, 
according to the press, for periods of time. If the mission is, 
in fact, hunting down terrorists, whether they be in 
Afghanistan or Pakistan or Somalia, Yemen, or anywhere else, 
and General McChrystal is able, working with you and others, to 
fashion a strategy for the United States, this will be an 
extraordinary achievement.
    And so, I'm excited about what we have read about the--
General McChrystal, but really looking forward to hearing more 
about that, and, likewise, how our own planning, as the 
chairman has mentioned, takes in consideration his views as 
they mesh with General Petraeus and your own.
    Admiral Mullen. Sure.
    Senator Lugar. And I think it's a potentially promising 
course for us.
    Admiral Mullen. We all see it the same way.
    Senator Lugar. Thank you.
    The Chairman. Admiral, thank you very much for being with 
us.
    Admiral Mullen. Thank you, sir.
    The Chairman. We wish you well. Thank you, sir.
    We stand adjourned.
    [Whereupon, at 12:05 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


     Responses of Admiral Michael G. Mullen to Questions Submitted
                        by Senator John F. Kerry

                  linking military and nonmilitary aid
    Question. Do you believe (as advocated by President Obama in his 
championing of the Kerry-Lugar bill, and his cosponsorship of S. 3263 
in 2008) that military aid should be de-linked from development aid--
with development aid as a long-term commitment to the Pakistani people, 
and military aid carefully calibrated annually to the requirements and 
the will of the Pakistani military? Or do you believe that military and 
nonmilitary aid should be authorized in the same piece of legislation?

    Answer. Military support alone will not be sufficient to meet the 
threat of extremism in Pakistan but it will also require complementary 
assistance to the civilian elements in Pakistan society. The 
significant increases in nonmilitary assistance in the Kerry-Lugar bill 
are essential to meet these economic, developmental, and educational 
needs. This assistance will also lay the foundation for building a 
long-term relationship and demonstrating that the United States is 
committed to Pakistan and the region. Military assistance needs to be 
requirements driven while also being flexible enough to meet changing 
conditions on the ground. Authorization for military assistance does 
not necessarily need to be separate from nonmilitary legislation but 
the language should not have conditionality that undermines the long-
term relationship and trust that we are trying to build.
                     levels of military assistance
    Question. Do you believe that the level of military assistance 
channeled through the State Department should be locked in place now 
for the next 5 years, or (as advocated by President Obama in his 
championing of the Kerry-Lugar bill, and cosponsorship of S. 3263) that 
it should be authorized on an annual basis, depending on the actions, 
needs, and commitment of the Pakistani military?

    Answer. Kerry-Lugar bill reinforces a long-term relationship with 
the nonmilitary assistance, but it is also important to affirm the 
longer term military partnership. A multiyear authorization for 
military assistance channeled through the State Departments' FMF can 
reinforce this. Funding and implementation would still be dependent on 
the actions, needs, and commitment of the Pakistani military as 
determined by the strategy execution, benchmarks, and other oversight/
accountability methods, and does not need to be restricted by 
legislative language. Moreover, we still require the flexibility to 
determine funding levels and authorities required to address the 
evolving situation on the ground.

    Question. Do you believe that the Pakistani military will be more 
cooperative with U.S. efforts or less cooperative if they know that 
they will receive exactly the same Foreign Military Financing 
authorization every year for the next half-decade, regardless of their 
actions?

    Answer. A long-term commitment for Foreign Military Financing will 
reinforce the long-term relationship, mil-to-mil cooperation and the 
ability for the Pakistani military to develop consistent longer range 
planning for requirements and equipment. Provision of such assistance 
would still have the oversight/accountability and benchmarks required 
by the President's stratagey.
                   limitations on military assistance
    Question. Do you consider the limitations on military assistance 
contained in section 6 of S. 962 (and the waivers provided) to be a 
reasonable compromise between setting no conditions on security aid and 
setting overly restrictive limitations on such assistance?

    Answer. It is critical that U.S. assistance to Pakistan be tied to 
benchmarks and results and that we have transparency and 
accountability, but this should be based on the President's strategy 
rather than on legislation. Conditionality in legislative language 
results in negative perceptions with the Pakistani population and 
leadership and is counter to the President's strategy and goals of 
building a long-term relationship and trust with Pakistan.

    Question. What do you think would be the impact of conditioning 
military aid on issues of great political sensitivity in Pakistan, such 
as those contained in other pieces of legislation but excluded from S. 
962?

    Answer. ``Conditionality'' in general on military aid to Pakistan 
has negative effects on perceptions of the Pakistani people and 
leadership and reinforces a transactional relationship and the 
Pakistani perception that the United States is not interested in a 
long-term relationship. Conditioning all the military assistance on the 
politically sensitive issues in some other legislation is too rigid, 
hinders timely execution and undermines our ability to move forward 
effectively with the strategy.
                     coalition support funds (csf)
    Question. Congress has appropriated billions of dollars in CSF to 
reimburse Pakistan for its operational and logistical support of U.S.-
led counterterrorism operations. Much of the money spent, particularly 
in the earlier years, has been unauditable, and this committee has yet 
to receive a full and current information on the CSF program.

  <bullet> Do you consider existing oversight and accountability 
        procedures for Coalition Support Funds to be adequate? If so, 
        when were procedures changed to provide greater oversight and 
        accountability?

    Answer. Department of Defense (DOD) takes very seriously its 
oversight of the Coalition Support Fund (CSF). Accountability and 
oversight procedures were enhanced in 2008 to include the following: 
Claims are first processed and vetted through the 2-Star command of the 
Office of Defense Representative-Pakistan. U.S. Central Command then 
reviews the claims and forward them to DOD. The Under Secretaries of 
Defense for Comptroller and Policy review each claim before they are 
finally approved by the Secretary of Defense.

  <bullet> Will you insure that this committee is, in future, given 
        full access (in classified or unclassified form) to all 
        documents necessary to understand and evaluate the 
        effectiveness of the CSF program in Pakistan?

    Answer. In accordance with public law, the Secretary of Defense, in 
consultation with the Director of the Office of Management and Budget, 
provides documentation for each claim to the congressional defense 
committees. Additionally, the Secretary of Defense provides quarterly 
reports to the congressional defense committees on the use of funds 
provided.

  <bullet> In rough terms, what percentage of CSF payments over the 
        past 7 years have reimbursed costs incurred in the battle 
        against al-Qaeda and the Taliban, as opposed to other missions 
        of the Pakistani military or redirection to the general budget?

    Answer. Payments are reimbursements for expenses incurred in 
support of U.S. military operations. To that end, all CSF 
reimbursements to Pakistan represent costs incurred by the Pakistani 
military in the battle against al-Qaeda and the Taliban.
          improving pakistan's counterinsurgency capabilities
    Question. The administration has requested $400 million for PCCF in 
the FY09 supplemental to build the capacity of Pakistan's security 
forces to combat insurgents in Pakistan. The traditional State 
Department-guided security assistance framework has built up 
protections to prevent the supply of U.S. arms and training to military 
forces that have engaged in human rights violations, to help ensure 
that the system is not abused by bribery or other procurement 
irregularities, and to prevent the diversion of equipment to 
unauthorized recipients. Many of the purchases envisioned for the PCCF 
seem compatible with that traditional security assistance framework.

  <bullet> What are the specific constraints imposed by the traditional 
        security assistance framework that would hinder the work you 
        think is needed in Pakistan?

    Answer. Traditional security assistance authorities bring with it 
the added complexity and multiple bureaucratic processes and timelines 
associated with a peacetime environment. Pakistan is too important and 
too fragile to rely on processes which lack built-in agility for the 
Combatant Commander to effectively build Pakistan's capabilities during 
wartime. The situation in Pakistan is of grave concern to U.S. national 
security, and PCCF provides us the flexibility we need to help reduce 
the risk to U.S. troops, our regional partners, and the U.S. homeland.

  <bullet> If PCCF is routed through the Department of Defense (either 
        for 1 year, or longer), what steps will you take to ensure that 
        the safeguards of the traditional security assistance framework 
        are used to prevent predictable problems from arising in the 
        PCCF?

    Answer. Most of the PCCF funds will be executed within the 
Department of Defense (DOD) acquisition system, thereby reducing the 
risk of abuse or irregularities. Additionally, the Office of Defense 
Representative-Pakistan (ODR-P), is dual-hatted and works for both the 
Ambassador and the CENTCOM Commander. It is the ODR-P commander who has 
the responsibility to ensure equipment is not diverted to unauthorized 
recipients. Additionally, DOD has 5 years worth of experience and 
lessons learned in Iraq and Afghanistan to execute this type of wartime 
program. These lessons learned are being incorporated into the PCCF.
                            counternarcotics
    Question. According to the NYT July 20, 2003, Secretary Rumsfeld 
personally approved over 50 U.S. airstrikes in Iraq which were expected 
to kill up to 50 innocent Iraqi civilians each. According to Pentagon 
policy at the time, any strikes expected to result in 50 or more 
civilian deaths as unavoidable collateral damage were to be approved 
personally by the Secretary. The media was informed of this policy in 
July 2003 when the chief U.S. commander disclosed the sign-off policy. 
Does that policy continue today in Afghanistan, and, if so, in what 
form? Do White House or Pentagon officials sign off on bombing runs 
where civilian casualties are expected to be higher than 50? Which 
officials?

    Answer. (CLASSIFIED--DELETED)
                                 ______
                                 

       Responses of Admiral Michael Mullen to Questions Submitted
                    by Senator Robert P. Casey, Jr.

         threat perception among pakistan's military leadership
    Question. There is widespread speculation that even though 
Pakistan's military has increased the mobilization of forces against 
the Taliban in the Swat and surrounding areas, the military leadership 
continues to view India as the most serious threat to Pakistan's 
security. You have an established relationship with General Kiyani and 
the rest of Pakistan's senior military officials. Accordingly, you are 
in a position to evaluate whether they are changing their perception of 
the existential threat posed by the Taliban and other religious 
extremist groups.

  <bullet> Is it accurate to say the military leadership still sees 
        India as the most serious threat to Pakistan? Could a change in 
        thinking inside the leadership help to allay fears about 
        India's intentions among the Pakistani population?

    Answer. While Pakistani senior military leadership continues to 
view India as its most significant threat, General Kayani does 
recognize the extremist threat that he has in his country. The 
increasing number of attacks against Pakistan's citizens and 
institutions by extremists as well as the losses suffered by Pakistan's 
security forces in killed or wounded in action, particularly in the 
operations this past year, demonstrates a changing perception and 
recognition of the extremist threat and a willingness to engage 
extremists groups.

  <bullet> Do you believe the Pakistani Army should redeploy the 
        majority of its troops along the Indo-Pakistani border to the 
        Swat and surrounding areas to fight the Taliban? If not, what 
        more should the military do?

    Answer. (CLASSIFIED--DELETED)
                                 india
    Question. The obsession of the Pakistani military and civilian 
elites with the perceived threat posed by India is unhelpful and is 
constraining a more effective response by Pakistan to the current 
threat posed by Taliban extremists. It is Pakistan that bears the most 
responsibility for the current state of affairs, and we cannot forget 
that.

  <bullet> However, are there any actions that India could take to 
        lower the temperature along the common border with Pakistan? 
        Any actions that can provide a public relations excuse for the 
        Pakistanis to shift troops from the border to northwest 
        Pakistan where the real war lies?

    Answer. India is sensitive to external involvement in their 
relations with Pakistan, as they consider it a strictly bilateral 
issue. They maintain forces on the Line of Control in attempts to 
interdict terrorist and militant infiltrations, and any changes to 
their posture would be extremely sensitive politically. The U.S. has 
told India that we are pressuring Pakistan to take action against LeT, 
and the Pakistani Government has said that it opposes terror in its 
borders. India is waiting to see definitive action from Pakistan in 
that regard.

  <bullet> If so, are you encouraging your Indian counterparts to take 
        such steps?

    Answer. We are. Appreciating the extreme domestic political 
sensitivities surrounding the issue in India, we nevertheless urge 
senior leaders to consider actions which would avoid provocation, build 
trust, and increase Pakistan's comfort with focusing its military 
efforts elsewhere.
                     supply routes into afghanistan
    Question. U.S.-NATO supply routes into Afghanistan through Pakistan 
are not only susceptible to attacks by extremists, but are also 
increasingly strained. Roughly 70 percent of Western supplies heading 
into Afghanistan traverse Pakistani territory. With the closure of the 
U.S. airbase at Manas, Kyrgyzstan, and President Obama's directive to 
deploy an additional 21,000 troops to Afghanistan, I am very concerned 
that the two existing routes in Pakistan will be unsuited to manage all 
the additional traffic.

  <bullet> What is your assessment of the vulnerability of the two 
        supply routes in Pakistan? Will the routes be able to support 
        the increasing volume of supplies heading into Afghanistan?

    Answer. The two supply routes in Pakistan do remain vulnerable to 
attack, but to date loss due to pilferage, theft, and damage have been 
negligible. Flow of U.S. supplies through the Chaman and Torkham border 
crossings from Pakistan into Afghanistan are at historically high 
levels and are currently meeting USCENTCOM requirements. Additionally, 
we project that combined with the flow of supplies through the Northern 
Distribution Network (NDN), these two routes through Pakistan will be 
able to support the requirements associated with the increase in U.S. 
force levels in Afghanistan.

  <bullet> What alternate supply routes in Central Asia or elsewhere in 
        the region have you identified to compensate for the loss of 
        the Manas base? Is it possible to increase the load on the 
        ``Northern Route'' traversing Russia and Central Asia?

    Answer. CENTCOM has identified primary and alternate locations in 
the region to replace the aerial refueling and passenger/cargo 
transload operations at Manas Air Base. Additionally, we continue 
making excellent progress developing alternate lines of communication 
through the Northern Distribution Network (NDN) to support the full 
spectrum of current and future operations in Afghanistan. We began 
booking substantial supplies from the north via train through Europe, 
the Caucasus and Central Asia, and have explored additional 
opportunities to engage regional partners to further expand sustainment 
alternatives. As we increase force levels over the next few months in 
Afghanistan, we will gain greater fidelity on the capacity of the NDN, 
but early indications are that we should be able to increase the load 
from the north more than previously estimated. This will provide an 
excellent alternative route with which to support our overall 
Afghanistan logistics requirements.
                                 ______
                                 

       Responses of Admiral Michael Mullen to Questions Submitted
                     by Senator Kirsten Gillibrand

                              afghanistan
    Question. To implement the surge in Afghanistan, the administration 
proposes an additional 21,000 troops, 4,000 of them to be engaged in 
training the Afghan security forces, and 430 civilians. I am concerned 
about the low number of civilian personnel, particularly when compared 
to the number of military. As you noted this morning before the 
committee, civilians can be trained for nation-building and may be 
perceived as less threatening to the average Afghani. As the President 
has said, we need to win the hearts and minds of the Muslim world, 
particularly in countries where we have become so invested.

  <bullet> How do you think we can change the perception of the Afghani 
        people if our presence on the ground has an overwhelmingly 
        military face?

    Answer. The additional 21,000 troops in Afghanistan are needed to 
improve security and set the necessary conditions for a significant 
increase in the civilian personnel who can work directly with the 
Afghan people and improve conditions throughout the country and within 
the Afghan Government. We are working closely with our partners within 
the interagency to significantly increase the number of civilians 
contributing to U.S. efforts in Afghanistan as a purely military 
solution is not the key to long-term growth and stability in the 
country.

  <bullet> How are we ensuring that the civilians going into theater 
        are appropriately trained in counterinsurgency and self-
        protection?

    Answer. Civilians assigned to Provincial Reconstruction Teams (PRT) 
receive military familiarization training, training on military 
planning, civilian-military integration training, and participate with 
their military members in counterinsurgency situation training 
exercises for 3 weeks at Camp Aterburry in Indiana prior to their 
deployment. The State Department's Foreign Service Institute provides 
training to American diplomats and other professionals to advance U.S. 
foreign interests overseas. We believe the additional 21,000 troops 
will help improve security in Afghanistan and help set the conditions 
necessary for our civilian counterparts to work safely with their 
Afghan counterparts and both coalition and U.S. military.
                     civilian rapid response corps
    Question. At the hearing, you discussed the need for many more 
civilian experts than the 13 currently in place in the southern 
Afghanistan PRTs. I support a robust civilian capability, with 
appropriate military and counterinsurgency training, so that it can be 
used in the future to swiftly respond to Afghanistan and similar 
situations.

  <bullet> How large of a Civilian Rapid Response Corps is needed to 
        respond around the world? What kind of training would they 
        need?

    Answer. Future conflicts will not be won by military means alone 
and the U.S. requires a robust civilian capacity and capability to 
operation with our men and women in uniform. We need to ensure that 
military gains are followed by commensurate progress in governance, 
economics, reconstruction and development. We do not yet have a formal 
position on what the appropriate size would need to be or what the 
expertise and capabilities such corps would need. We will continue to 
work with the Department of Defense and the Department of State.

  <bullet> How large of a Civilian Rapid Response Corps is needed to 
        respond around the world? How much funding do they need?

    Answer. To meet the needs of current and foreseen national security 
missions, the Department of Defense supports the creation of the 
Civilian Response Corps (CRC). The CRC consists of three components: 
Active, Standby, and Reserve. The administration has requested funding 
to support the establishment of 250 Active Component members, 2,000 
Standby Component members, and 2,000 Reserve Component members as part 
of the Civilian Stabilization Initiative. These numbers are based on 
best estimates of personnel needed to plan and execute three 
simultaneous engagements--one large, one medium, and one small--to 
include deployed personnel and Washington-based support.
    For FY 2010, the President has requested the Civilian Stabilization 
Initiative, which provides funding for the CRC, at $323.4M. DOD 
supports that budget request because it will build the capacity for 
critical civilian enablers.
                                pakistan
    Question. Pakistan is among the world's leading recipients of U.S. 
assistance, obtaining more than $5.3 billion in overt aid since 2001, 
including about $3.1 billion in development and humanitarian funding. 
Pakistan also has received $6.9 billion in military reimbursements for 
its support of counterterrorism efforts. Yet, we have not seen adequate 
results from our funding. We have not been assured, until recently, of 
the Pakistan military's willingness to fight extremists on their soil. 
My belief is that a significant factor in the current military 
offensive by the Pakistan military is that it has the support of the 
country's population.

  <bullet> How are we going to build an environment where our two 
        governments' interests are aligned?

    Answer. It is essential that assistance we provide results in 
effective Pakistani efforts against the extremist threat. The U.S. 
Government is engaging with the Government of Pakistan at the highest 
levels emphasizing the threat that extremist and insurgent networks 
pose to their nation and the U.S./international community. Many of 
Pakistan's leaders recognize the threat and we continue to emphasize 
the need to take sustained action to mitigate it. This increasing 
alignment of our interests with the interests of Pakistan on tackling 
the extremist threat is a positive development, but will require 
continued senior leader engagement and U.S. assistance as we continue 
to work together in pursuit of common interests.

  <bullet> The drone attacks into Pakistan have been unpopular in 
        Pakistan; although there is a military value to them. How do we 
        balance our need for military effectiveness with our concern 
        regarding the Pakistani people's perception?

    Answer. Pakistan is a sovereign nation with over 100,000 military 
and other security forces conducting operations along the western 
border against extremist/terrorist groups. The United States is working 
closely with the Government of Pakistan to assist them in combating 
extremists on their territory. We also reserve the right to protect the 
U.S. Homeland from terrorist threats from al-Qaeda and other affiliated 
groups. We continually evaluate our efforts to protect the U.S. 
Homeland with the need for patience in supporting Pakistani efforts to 
build an environment in the border regions that is nonsupportive of 
extremists.
                              peace talks
    Question. The May 21st New York Times reports that the Taliban and 
other armed group leaders are engaging with the Afghan Government in 
peace talks, and that one of their demands is the withdrawal of all 
U.S. forces from Afghanistan, to be supplanted by a peacekeeping force 
drawn from predominantly Muslim countries.

  <bullet> What is your assessment of the seriousness of these 
        discussions?

    Answer. We are aware that multiple media outlets have reported that 
the Taliban have engaged the Government of Afghanistan in peace talks 
(i.e., reconciliation) to include specific demands and conditions. It 
is the objective of the United States to disrupt, dismantle, and defeat 
al-Qaeda and prevent terrorist and extremist use of safe havens in 
Afghanistan and Pakistan. The people and Government of Afghanistan and 
the international community share these objectives. Any discussions 
regarding reconciliation cannot move forward if any or all of the 
conditions are unacceptable to the Government of Afghanistan and the 
international community. Denying terrorist and extremist sanctuary in 
Afghanistan will require the presence of U.S. and international forces 
in the country. Hence, the withdrawal of U.S. forces as a condition by 
any group seeking to reconcile with the Government of Afghanistan 
cannot be considered a serious proposition.

  <bullet> Do they impact on your decision or timing with regard to 
        sending in more troops?

    Answer. No. Decisions regarding timing with regard to sending more 
troops are made based on resources available and the prevailing 
conditions within Afghanistan.

                                  <all>

</pre></body></html>
